<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2006 budget 
request for programs within the subcommittee's jurisdiction.]

  Prepared Statement of the American Public Transportation Association

    Mr. Chairman, thank you for this opportunity to submit written 
testimony on the security and safety of public transportation systems. 
We appreciate your interest in transportation security, and we look 
forward to working with you as you develop the fiscal year 2006 
appropriations bill for the Department of Homeland Security (DHS).

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit international association of over 1,500 public and private 
member organizations including transit systems and commuter rail 
operators; planning, design, construction, and finance firms; product 
and service providers; academic institutions; transit associations and 
State departments of transportation. APTA members serve the public 
interest by providing safe, efficient, and economical transit services 
and products. Over 90 percent of persons using public transportation in 
the United States and Canada are served by APTA member systems.

                                OVERVIEW

    Mr. Chairman, public transportation is one of our Nation's critical 
infrastructures. We cannot over-emphasize the critical importance of 
our industry to the economic quality of life of this country. Over 9.6 
billion transit trips are taken annually on all modes of transit 
service. People use public transportation vehicles over 32 million 
times each weekday. This is more than 16 times the number of daily 
travelers aboard the Nation's airlines.
    Safety and security are the top priority of the public 
transportation industry. Transit systems took many steps to improve 
security prior to 9/11 and have significantly increased efforts since 
then. Since September 11, 2001, public transit agencies in the United 
States have spent over $2 billion on security and emergency 
preparedness programs and technology, almost all from their own budgets 
with only minimal Federal funding. Last year's events in Madrid further 
highlight the need to enhance security on public transit systems and to 
do so without delay. We do not need another wakeup call like Madrid.
    In response to an APTA survey, transit agencies around the country 
have identified in excess of $6 billion in transit security needs. 
State and local governments and transit agencies are doing what they 
can to improve security, but it is important that the Federal 
Government be a full partner in the effort to ensure the security of 
the Nation's transit users.
    In fiscal year 2003, transit security received $65 million in 
Federal funding from DHS. In fiscal year 2004, $50 million was provided 
for Federal transit security programs from DHS. For the first time in 
fiscal year 2005, Congress specifically appropriated $150 million for 
transit, passenger and freight rail security. Out of the $150 million, 
transit will receive approximately $130 million--almost $108 million 
for rail transit and more than $22 million for bus. Also, ferries will 
receive an additional $5 million for security from a separate account. 
We are very appreciative of this effort. However, in the face of 
significant needs, more needs to be done.
    We urge Congress to act decisively on this issue. In light of the 
documented needs, we respectfully urge Congress to provide $2 billion 
in the fiscal year 2006 Homeland Security Appropriations bill for 
transit security. Of that amount, we recommend that $1.2 billion be 
provided for capital needs, and $800 million for transit costs. Federal 
funding for needs should provide for, among other things, planning, 
public awareness, training and additional transit police.
    We are disappointed that the Administration recommended only $600 
million for a Targeted Infrastructure Protection Program in the fiscal 
year 2006 DHS budget proposal, which would fund infrastructure security 
grants for transit, seaports, railways and energy facilities. We were 
also disappointed that the Administration does not include a specific 
line item funding amount for transit security. We look forward to 
working with the Administration and Congress in securing adequate 
transit security funding that begins to address unmet transit security 
needs of the country.
    We further request that the existing process for distributing DHS 
Federal grant funding be modified so that funds are distributed 
directly to transit authorities, rather than to State Administrating 
Agencies (SAA). While we are willing to coordinate with the States and 
urban areas that we serve, we believe direct funding to the transit 
authorities would be more efficient and productive.
    We are pleased to note that APTA has become a ``Standards 
Development Organization'' (SDO) for the public transportation 
industry. Our efforts in standards development for commuter rail, rail 
transit and bus transit operations over recent years have been 
significant and our status as a SDO has been acknowledged by both the 
Federal Transit Administration (FTA) and the Federal Railway 
Administration (FRA). The FTA and the Transportation Research Board 
have also supported our standards initiatives through the provision of 
grants. We would like to apply our growing expertise in standards 
development of transit industry safety and security, best practices, 
guidelines and standards. We look forward to working with the 
Administration and Congress in support of this initiative and trust 
that Federal financial assistance would be made available to develop 
such standards and practices.
    We also would like to work with Congress and the Department of 
Homeland Security's Directorate of Science and Technology to take a 
leadership role in advancing research and technology development to 
enhance security and emergency preparedness for public transportation.

                       SECURITY INVESTMENT NEEDS

    Mr. Chairman, after the awful events of 9/11, the transit industry 
invested some $2 billion in enhanced security measures, building on the 
industry's already considerable efforts. At the same time, our industry 
undertook a comprehensive review to determine how we could build upon 
our existing industry security practices. This included a range of 
activities, some I discussed earlier in testimony, which include 
research, best practices, education, information sharing in the 
industry, and surveys. As a result of these efforts we have a better 
understanding of how to create a more secure environment for our 
riders, and the most critical security investment needs.
    Our latest survey of public transportation security identified 
enhancements of at least $5.2 billion in additional capital funding to 
maintain, modernize, and expand transit system security functions to 
meet increased security demands. Over $800 million in increased costs 
for security personnel, training, technical support, and research and 
development have been identified, bringing total additional transit 
security funding needs to more than $6 billion.
    Responding transit agencies were asked to prioritize the uses for 
which they required additional Federal investment for security 
improvements. Priority examples of operational improvements include:
  --Funding current and additional transit agency and local law 
        enforcement personnel.
  --Funding for over-time costs and extra security personnel during 
        heightened alert levels.
  --Training for security personnel.
  --Joint transit/law enforcement training.
  --Security planning activities.
  --Security training for other transit personnel.
    Priority examples of security capital investment improvements 
include:
  --Radio communications systems.
  --Security cameras on-board transit vehicles and in transit stations.
  --Controlling access to transit facilities and secure areas.
  --Automated vehicle locator systems.
  --Security fencing around facilities.
    Transit agencies with large rail operations also reported a 
priority need for Federal capital funding for intrusion detection 
devices.
    Mr. Chairman, the Department of Homeland Security issued directives 
for the transit industry in May 2004, which would require that transit 
authorities beef up security and to take a series of precautions which 
would set the stage for more extensive measures without any Federal 
funding assistance. We believe these directives are unfunded mandates. 
Many of our transit systems have already carried out most of the 
measures that Transportation Security Administration (TSA) is calling 
for, such as drafting security plans, removing trash bins and setting 
up procedures to deal with suspicious packages. The cost of these 
measures and further diligence taken during times of heightened alert 
is of particular concern to us. We look forward to working with you in 
addressing these issues.
    As you know, in the fiscal year 2005 Homeland Security 
Appropriations bill (Public Law 108-334), TSA can hire up to 100 rail 
inspectors using a $10 million appropriation. We have concerns about 
this provision. We believe that funding for the inspectors would be 
better spent on things that would support the industry such as 
surveillance cameras, and emergency communication and other systems 
rather than highlighting security issues without providing the 
necessary resources to address them. We look forward to working with 
you in addressing our concerns.

                               BACKGROUND

    Mr. Chairman, prior to and following September 11, 2001--the date 
of the most devastating terrorist attack in U.S. history--APTA has 
played a key role in addressing the safety and security issues of our 
country. American public transportation agencies have also taken 
significant measures to enhance their security and emergency 
preparedness efforts to adjust to society's new state of concern. 
Although agencies had a wide range of security initiatives in place at 
the time of the World Trade Center and Pentagon attacks and already had 
developed emergency response plans, the September 11 incidents focused, 
strengthened and prioritized security efforts throughout the industry.
    Transit agencies have had an excellent safety record and have 
worked for years to enhance their system security and employee security 
training, by following government standards and APTA guidelines, and by 
learning from the attacks on transit agencies abroad. For example, the 
1995 sarin gas attack in the Tokyo subway system caused U.S. transit 
properties managing tunnels and underground transit stations to go on 
high alert. The San Francisco Bay Area Rapid Transit District, for 
instance, responded to the potential threat of chemical weapons attacks 
by sending a transit police team to Fort McClellan, Alabama, to learn 
response tactics from U.S. Army chemical weapons experts.
    In the months following the September 11 terrorist attacks, transit 
agencies of all sizes worked to identify where they might be vulnerable 
to attacks and increased their security spending for both operations 
and capital costs. The agencies subsequently upgraded and strengthened 
their emergency response and security plans and procedures, taking 
steps to protect transit infrastructure and patrons and to increase the 
transit security presence while giving riders a sense of security.
    Some initiatives around the country include:
  --Increased surveillance via closed circuit TV;
  --Increased training for employees;
  --Hired more police, K-9 units added;
  --Chemical detection systems being tested;
  --Infrastructure design to eliminate hiding places;
  --Drills are routinely held with first responders; and
  --Encouraging riders to be vigilant for suspicious activities or 
        items.
    After September 11, transit systems enhanced efforts to prevent 
unauthorized entry into transit facilities. The need for employees and 
passengers to stay alert and report suspicious occurrences became a key 
goal of many agencies. These efforts are paying off. But, while many 
transit agencies are more secure than they were prior to September 11, 
more can and should be done.
    APTA has launched additional efforts to further transit industry 
security and preparedness, collaborating with FTA in developing 
emergency preparedness forums, and sponsoring and organizing security-
related conferences and workshops. Moreover, APTA developed a list of 
critical safety and security needs faced by the transit industry, which 
it has provided to the Department of Transportation and the U.S. 
Congress.

PUBLIC TRANSPORTATION INFORMATION SHARING ANALYSIS CENTER (ISAC)--NEED 
                          FOR ONGOING FUNDING

    Presidential Decision Directive Number 63 authorizes and encourages 
national critical infrastructures to develop and maintain ISACs as a 
means of strengthening security and protection against cyber and 
operations attacks. APTA is pleased to have been designated a public 
transportation Sector Coordinator by the U.S. Department of 
Transportation, and in that capacity has received a $1.2 million grant 
from the Federal Transit Administration to establish a transit ISAC. 
APTA formalized an agreement with a private company to implement the 
ISAC and make it available to public transit systems around the 
country.
    This ISAC for public transit provides a secure two-way reporting 
and analysis structure for the transmission of critical alerts and 
advisories as well as the collection, analysis and dissemination of 
security information from transit agencies. The public transit ISAC 
also provides a critical linkage between the transit industry, the U.S. 
Department of Transportation, the Transportation Security 
Administration, and the Department of Homeland Security.
    The Public Transit ISAC has been invaluable to the public transit 
industry. However, its 2-year funding from the FTA has expired, and 
even though APTA pursued future funding for the ISAC from DHS and other 
agencies, we were not successful. DHS has decided it will no longer 
provide funding for ISACs. Instead, DHS has launched a new program--
Homeland Security Information Network-Critical Infrastructure (HSIN-
CI), in which we are participating. HSIN is designed to provide a new 
set of tools to share critical sector information among private 
industry and government, but a fully functioning HSIN has yet to be 
realized. Once it is, there is no guarantee that it will ever be as 
useful and comprehensive as the Public Transit ISAC. Consequently, we 
believe that ongoing, reliable and consistent funding from Congress for 
the Public Transit ISAC is necessary.

                   ONGOING TRANSIT SECURITY PROGRAMS

    Mr. Chairman, while transit agencies have moved to a heightened 
level of security alertness, the leadership of APTA has been actively 
working with its strategic partners to develop a practical plan to 
address our industry's security and emergency preparedness needs. 
Shortly after the September 11 events, the APTA Executive Committee 
established a Security Task Force. The APTA Security Task Force has 
established a security strategic plan that prioritizes direction for 
our initiatives. Among those initiatives, the Task Force serves as the 
steering group for determining security projects with more than $2 
million in Transit Cooperative Research funding through the 
Transportation Research Board.
    Through this funding, APTA has conducted four transit security 
workshop forums around the Nation for the larger transit systems with 
potentially greater risk exposure. These workshops provided 
confidential settings to enable sharing of security practices and 
applying methodologies to various scenarios. The outcomes from these 
workshops were made available in a controlled and confidential format 
to other transit agencies unable to attend the workshops. The workshops 
were held in New York, San Francisco, Atlanta, and Chicago.
    In partnerships with the Transportation Research Board, the APTA 
Security Task Force has also established two TCRP Panels that 
identified and initiated specific projects developed to address 
Preparedness/Detection/Response to Incidents and Prevention and 
Mitigation. The Security Task Force emphasized the importance for the 
research projects to be operationally practical.
    In addition to the TCRP funded efforts, a generic Checklist For 
Transit Agency Review Of Emergency Response Planning And System Review 
has been developed by APTA as a resource tool and is available on the 
APTA web site. Also through the direction of the Security Task Force, 
APTA has reached out to other organizations and international 
transportation associations to formally engage in sharing information 
on our respective security programs and to continue efforts that raise 
the bar for safety and security effectiveness.
    APTA has long-established Safety Audit Programs for Commuter Rail, 
Bus, and Rail Transit Operations. Within the scope of these programs 
are specific elements pertaining to Emergency Response Planning and 
Training as well as Security Planning. In keeping with our industry's 
increased emphasis on these areas, the APTA Safety Audit Programs have 
been modified to place added attention to these critical elements.

                               CONCLUSION

    Mr. Chairman, in light of our Nation's heightened security needs 
post 9/11, we believe that increased Federal investment in public 
transportation security by Congress and DHS is critical. The public 
transportation industry has made great strides in transit security 
improvements since 9/11 but much more needs to be done. We look forward 
to building on our cooperative working relationship with the Department 
of Homeland Security and Congress to begin to address these needs. We 
again thank you and the Committee for allowing us to submit testimony 
on these critical issues, and look forward to working with you on 
safety and security issues.
                                 ______
                                 

  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

    The Association of State Floodplain Managers, Inc. (ASFPM) is 
pleased to share comments on these key aspects of the fiscal year 2006 
budget proposal for FEMA, which we believe greatly impact the ability 
to reduce the Nation's risk and cost from flooding (or natural 
hazards):
  --Urge transfer of funds from the National Flood Insurance Fund to 
        the Flood Mitigation Fund in the amounts authorized in 2004 to 
        deal with the drain represented by repetitively flooded, 
        insured properties.
  --Support for continued full funding for modernization of flood maps, 
        with comments about quality and the need to re-evaluate the 
        funding and duration of the effort.
  --Restore the 15 percent formula for the Hazard Mitigation Grant 
        Program funding in States with Basic Mitigation Plans and 
        oppose the Administration's proposed reduction of Hazard 
        Mitigation Grant Program funds from 20 percent to 12.5 percent 
        for States that have Enhanced Mitigation Plans approved by 
        FEMA.
  --Monitor how the Department of Homeland Security addresses natural 
        hazards, which each year threaten nearly every local 
        jurisdiction to some degree, and how the Department addresses 
        mitigation programs intended to bring about long-term reduction 
        in the impacts of hazards.
  --Clarify that mitigation funds provided to private property owners 
        under FEMA's programs are not taxable as income.
    The Association of State Floodplain Managers, Inc., and its 20 
State chapters represent over 7,000 State, local, and private sector 
officials as well as other professionals who are engaged in all aspects 
of floodplain management and hazard mitigation. All are concerned with 
reducing our Nation's flood-related losses and reducing the costs of 
flooding.

Transfer Funds to Address the NFIP'S Repetitive Loss Problem
    Following several years of deliberation, Congress enacted the Flood 
Insurance Reform Act of 2004. In large part, the Act is intended to 
provide FEMA, States and communities with the funding and tools needed 
to deal with the National Flood Insurance Program (NFIP) repetitive 
loss problem. For many years FEMA has identified the disproportionate 
amount of repetitive claims paid on a very small percentage of NFIP-
insured properties as the most significant factor that drives increases 
in the cost of flood insurance--which affects 4.4 million policyholders 
in every State and over 20,000 counties, cities and towns. Fewer than 
50,000 properties account for a drain of approximately $200 million a 
year.
    The Reform Act of 2004 authorizes transfers of funds (total of $90 
million) from the National Flood Insurance Fund (which contains only 
premium and fee income, no General Funds) into the National Flood 
Mitigation Fund to aggressively mitigate repetitive loss structures. 
Funds authorized for three elements of the Flood Mitigation Assistance 
program are: Basic ($40 million/year), Pilot ($40 million/year through 
fiscal year 2009), and Individual Property ($10 million/year). The 
Basic Program is mature, with virtually all States currently active to 
some degree. For the fiscal year 2006 Basic Program the Administration 
requests $28 million, just $8 million over the funding level of recent 
years. No funds were requested for the Pilot Program and the Individual 
Property Program.
    FEMA consistently asserts the merits of focusing mitigation efforts 
on repetitive loss properties in order to help stabilize and strengthen 
the National Flood Insurance Fund (NFIF). The Reform Act of 2004 
directs that the repetitive loss programs be funded by transfer from 
the NFIF without differentiating between fee income and premium income. 
DHS Undersecretary Mike Brown testified that the budget request is 
limited to only the additional $8 million for the Basic FMA program 
because the Department is studying how to fund the repetitive loss 
effort from fee income. ASFPM believes it is appropriate to transfer 
funds, without further delay, from fee income and/or premium income. 
Since the NFIF as a whole will benefit--and all policyholders will 
benefit if the pressure to raise the rates is diminished--then it is 
well worth the investment of some premium income.
  --ASFPM urges the Subcommittee to fully fund the Flood Mitigation 
        Assistance programs authorized in the Flood Insurance Reform 
        Act of 2004 by transferring funds from the National Flood 
        Insurance Fund to the National Flood Mitigation Fund.
  --ASFPM urges the Subcommittee to make clear that transfer funds for 
        the repetitive loss grant programs may be taken from premium 
        income and/or fee income, subject to the limitations of the 
        Reform Act of 2004.

Continue Support for Flood Map Modernization
    Flood maps are used for many purposes beyond the immediate needs of 
the National Flood Insurance Program. Good flood maps play a major role 
in disaster cost reduction--they are used to support land use and 
management of identified flood-prone areas. FEMA estimates that local 
regulation of flood hazard areas, using the flood maps, avoids property 
losses of over $1 billion each year. FEMA's estimate does not count the 
benefits associated with using the maps to guide development to less 
hazard-prone areas. Quality flood maps yield benefits at all levels of 
government. They help reduce the need for Federal disaster assistance 
and casualty loss tax deductions because at-risk homes with federally-
backed mortgages are required to be covered by flood insurance, which 
provides financial resources to help owners recover.
    ASFPM is concerned that rigid metrics imposed on FEMA are driving 
map production, rather than the goal of producing defensible and 
accurate flood maps that reflect necessary revisions. Further, budget 
constraints created by an out-of-date estimate of map needs is 
artificially restricting restudies and new studies to only a small 
number of streams or short reaches of coastline. The expectation that 
revised flood maps will meet high quality standards is an incentive and 
justification for States and communities to invest their own funds in 
the modernization effort--ASFPM is concerned that this expectation is 
not being met.
  --ASFPM strongly endorses the Administration's request for $200 
        million.
  --ASFPM urges the Subcommittee to request that FEMA re-evaluate the 
        duration and anticipated funding levels required to produce 
        revised and updated flood risk maps to the appropriate and 
        defensible quality standards. Re-evaluation is warranted 
        because of advances in technology, lessons learned in the early 
        years of this effort, improved understanding of the extent of 
        areas not adequately mapped, priorities identified by States 
        and communities, and the number of partnership efforts with 
        States and communities, including in-kind and other 
        contribution.
  --ASFPM urges the Subcommittee to express its expectation that FEMA 
        will address State-identified priorities and that adequate 
        quality data and mapping for streams and coastlines where 
        people are at-risk are the objectives.
Restore 15 percent Formula for Hazard Mitigation Grant Program and 
        Reject Reduction of Funding Available for States with Enhanced 
        Mitigation Plans
    ASFPM urges restoration of the 15 percent formula used to determine 
amounts made available after disasters for the Hazard Mitigation Grant 
Program (HMGP) authorized by Section 404 of the Stafford Act. States 
and communities across the country have evidence that the most 
effective time to garner support for mitigation projects is in the 
aftermath of disasters. While mitigation planning is a vital activity 
to identify hazards and potential risks, only actual damaging events 
generate significant public interest and State and local financial 
support. Redundant Regardless of the statistical evidence of the 
likelihood of future disaster occurrence, communities rarely place 
hazard mitigation above today's demands for education, social programs, 
local first responders, and the like. This is especially true in 
smaller communities where financial resources are always tight.
    On the proverbial sunny day,' flooding is a low priority for the 
millions of homeowners and business owners in the Nation's flood hazard 
areas--regardless of the mounting evidence that future floods will 
occur. Homeowners and business owners view offers for buyouts, 
elevations, and retrofit floodproofing very differently when they are 
shoveling mud, coping with toxic mold, or faced with collapsed 
foundations. Restoring HMGP to the 15 percent formula will provide 
resources to those who have just experienced damage and are most 
receptive to change.
    ASFPM recommends that pre-disaster funding be directed to 
community-based planning in order to prepare communities to undertake 
mitigation projects when the disaster strikes. It would also be 
reasonable to make pre-disaster mitigation funds available to support 
public projects that address at-risk State and community buildings, 
facilities, and public infrastructure--among the more costly categories 
of post-disaster public assistance. These projects, which do not 
require direct and voluntary participation of property owners, can 
readily be designed and implemented in the pre-disaster context and 
provide broad public benefits.
  --ASFPM urges the Subcommittee to restore the Hazard Mitigation Grant 
        Program formula to 15 percent of certain Federal disaster 
        expenditures. The Disaster Mitigation Assistance Act of 2000 
        calls for communities to have pre-disaster local mitigation 
        plans in order to access HMGP. One result of this requirement 
        is that communities will be better prepared to identify 
        eligible activities after the next declared disaster, thus 
        further shortening the time needed to obligate and expend the 
        HMGP funds.
  --ASFPM urges the Subcommittee to reject the Administration's 
        proposed reduction in the formula to determine amounts 
        available to States with Enhanced Mitigation Plans. To qualify 
        for HMGP based on the 20 percent that is authorized by the 
        Stafford Act, a State demonstrates a strong commitment by 
        administering a comprehensive mitigation program, including 
        having the capability and capacity to manage grants and assess 
        the cost avoidance of mitigation measures. The potential 
        availability of the increased HMGP amount is a powerful 
        incentive for States to take on the significant additional 
        responsibility to work with communities and others to identify 
        and implement feasible and cost-effective mitigation measures.
  --ASFPM recommends that the Subcommittee examine the effectiveness of 
        the nationwide, competitive Pre-Disaster Mitigation program. In 
        the fiscal year 2005 appropriations bill DHS was directed to 
        consult with State mitigation officials. Last fall State 
        officials were provided just 2 weeks to respond and, to date, 
        no report has been released. ASFPM recommends that particular 
        attention should be paid to citizen, community and State 
        interest in pre-disaster mitigation and how the ability to 
        provide the non-Federal cost share differs in the pre- and 
        post-disaster periods.

Monitor How the Department of Homeland Security Addresses Natural 
        Hazards and Mitigation
    Floods, hurricanes, severe storms, tornadoes, harsh winter storms, 
landslides, wildfires, and earthquakes put millions of Americans are at 
risk every day. From a cost and future consequences perspective, ASFPM 
remains concerned with the diminished focus on natural hazards and 
mitigation by the Department of Homeland Security. Despite continued 
assertions of commitment to FEMA's all-hazards mission, DHS has reduced 
cohesiveness of programs and reduced the number of staff who deal with 
natural hazards and mitigation. The following remain specific concerns: 
transferring FEMA funds to areas of DHS that are not under the 
jurisdiction of the Under Secretary for Emergency Preparedness & 
Response; detailing FEMA staff out of that directorate; and reducing 
support for the vital network of State and local public safety and 
disaster mitigation officials.
    DHS Secretary Chertoff is beginning a thorough examination of 
threats and vulnerabilities in order to prioritize them, and has 
expressed his intent to align DHS resources and priorities based on 
this analysis. Natural hazards are a threat in every State--every State 
has experienced multiple devastating floods that resulted in 
declaration of major disasters. Damage due to floods of all magnitudes 
are estimated as exceeding $5 billion each year. Most areas are at risk 
to other natural hazards, as well. Clearly, our communities and our 
citizens are vulnerable. ASFPM hopes that adequate consideration of 
natural hazards is made in the analysis called for by Secretary 
Chertoff.
  --ASFPM urges the Subcommittee to monitor DHS proposals and actions 
        that affect FEMA programs and staff to prevent unwise and 
        unnecessary reduction in FEMA's effectiveness, which in turn 
        will jeopardize State and local efforts to deal with natural 
        hazards and mitigation.
Clarify that Mitigation Grant Funds Received by Private Property Owners 
        are not Taxable as Income
    In 2004 the IRS made a determination that mitigation grants to 
property owners who work with their communities and States to prevent 
and minimize future damages to their homes and businesses are taxable 
as income. This decision is having a dramatic impact on the Nation's 
ability to reduce future damages and costs (many disaster costs are 
paid directly by taxpayers). Property owners, when told that mitigation 
cost-share grants will be taxable, are simply opting to NOT mitigate, 
thus remaining at-risk to future damage. Ironically, property owners 
are only eligible for cost sharing mitigation grants if it is clearly 
shown that the benefits to the Nation outweigh the costs to the Nation.
  --ASFPM urges the Subcommittee to include language in the 
        appropriations bill to clarify that mitigation cost sharing 
        grants are not taxable income.
    For information about ASFPM and this testimony, contact Larry 
Larson, Executive Director, at (608) 274-0123 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbaab8adbba68bada7a4a4afb8e5a4b9ac">[email&#160;protected]</a>) or 
Rebecca Quinn, Legislative Officer, at (410) 267-6968 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f4869785819d9a9ab4919586809c989d9a9fda9a9180">[email&#160;protected]</a>).
                                 ______
                                 

          Prepared Statement of the City of San Marcos, Texas

    Mr. Chairman and Members of the Subcommittee: On behalf of the City 
of San Marcos, Texas, I am pleased to submit this statement in support 
of our request for project funding through the Appropriations Bill for 
Homeland Security.
    The City of San Marcos requests an appropriation of $5,000,000 for 
the San Marcos Municipal Airport to construct and equip a multi-purpose 
fire station and fire fighter training facility. We would respectfully 
suggest that this project would properly fall within the scope of first 
responder, emergency preparedness and response training. There is no 
provision for this funding in the President's budget, nor has there 
been any prior year Federal funding.
    The City of San Marcos and facility users would be actively engaged 
in the project's funding through cost-sharing. Approximately $200,000 
would be provided by the City for all required real estate and 
utilities. The City and facility users would provide an estimated 
$600,000 annually in operating revenues when the facility is fully 
functional.
    The San Marcos Municipal Airport is a public general aviation 
airport owned and operated by the City of San Marcos, Texas. It is 
located just east of Interstate Highway 35 on Texas Highway 21 
approximately 30 miles south of Austin and 45 miles north of San 
Antonio. The airport occupies the site of a closed military air base, 
and we share the former military base with the Department of Labor's 
Gary Job Corps Center.
    There are currently 225 aircraft based at the airport, and the 
airport supports over 100,000 air operations annually. This makes the 
San Marcos Municipal Airport the largest and most active general 
aviation airport in the bustling Austin-San Antonio corridor. To serve 
the present and future safety and security needs of the airport, an 
emergency response capability, known in aviation terms as an Aircraft 
Rescue and Fire Fighting (ARFF) facility, has been among our highest 
priority goals. We have encountered a challenge in obtaining Federal 
funding assistance through conventional Federal Aviation Administration 
channels. In order for the airport to qualify for ARFF funding, the 
airport must first be certified under Federal Air Regulation, Part 139; 
however, to achieve certification, the airport requires an ARFF.
    As a better, more cost-efficient approach to achieving our goal, we 
are proposing to partner with the San Marcos Fire Department and the 
Gary Job Corps Center to construct and equip a facility on the airport 
that will meet the airport ARFF requirement, serve as a fire station 
for the City of San Marcos, and also be a training venue for the Gary 
Job Corps Center and other regional agencies to train fire fighters and 
emergency service first responders.
    Our plan proposes to construct, equip, and then operate a multi-
purpose fire station and fire fighter training facility located on the 
airport. The fire station would consist of two components. One would be 
a Federal Aviation Administration certified ARFF to meet the evolving 
public safety and security requirements of a growing public airport. 
Another component would be a conventional City of San Marcos fire 
station to be integrated with the San Marcos Fire Department's other 
emergency response forces to serve the citizens of San Marcos.
    In addition to these two emergency response capabilities, the 
facility would be the educational site and provide support to the Gary 
Job Corps Center's mission of training students for careers as 
professional fire fighters and emergency service first responders. We 
further envision that the facility will serve other regional training 
needs, especially for the many small community and rural emergency 
services responders who do not have the resources to maintain their own 
training facilities and programs. The planning estimate's total cost 
for project design, construction, furnishing, and equipping is 
$5,000,000.
    The San Marcos Municipal Airport is in desperate need of an ARFF to 
enhance public safety and security. Both the City of San Marcos and the 
San Marcos Fire Department need a fire station to serve the expanding 
eastern section of the city. The Gary Job Corps Center needs a fire 
fighter and first responder training school. All these critical public 
policy needs can be most effectively and efficiently met with a multi-
purpose fire station and fire fighter training facility located on the 
San Marcos Municipal Airport. This multi-purpose facility would 
maximize the use of limited public safety tax dollars, and, 
consequently, makes sense from a public policy perspective.
    We appreciate very much the Subcommittee's consideration of this 
request for $5,000,000 for the City of San Marcos for this important 
public safety and security project.
                                 ______
                                 

     Prepared Statement of the Coalition of Northeastern Governors

    As the Subcommittee begins the fiscal year 2006 transportation 
appropriations process, the Coalition of Northeastern Governors (CONEG) 
is pleased to share with the Subcommittee testimony on the fiscal year 
2006 Homeland Security Appropriations bill. The CONEG Governors commend 
the Subcommittee for its past support of funding for the Nation's 
critical transportation security needs, particularly rail security. 
Although we recognize the extensive demands being made upon Federal 
resources in the coming year, we urge the Subcommittee to continue the 
important Federal role in securing the Nation's transportation systems.
    Efforts to strengthen the Nation's security, particularly its 
multi-modal transportation system, are of paramount importance to the 
CONEG Governors. We believe high priority must be given to the safety 
and security of the Nation's passenger rail systems, and therefore urge 
that the fiscal year 2006 Appropriations include the funding necessary 
to enable the Department of Homeland Security to help strengthen the 
security of the Nation's intercity, commuter rail, and rail transit 
systems. These extensive systems move millions of riders daily, and are 
critical components of the transportation network. Funding for rail 
security programs will allow the Department of Homeland Security to be 
an essential partner with States, local governments and public 
transportation authorities in ensuring that these vital rail systems 
remain accessible, reliable--and safe.
    The CONEG Governors thank the entire Subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 

      Prepared Statement of the Greater Orlando Aviation Authority

    Chairman Gregg and distinguished members of the Senate 
Appropriations Subcommittee on Homeland Security: The Greater Orlando 
Aviation Authority (``the Authority'') greatly appreciates the 
opportunity to submit written testimony in support of funding 
initiatives necessary to enhance the efficiency and execution of 
Department of Homeland Security requirements at Orlando International 
Airport. The Authority remains a steadfast partner in ensuring the 
highest standards of public safety and security of our homeland and 
deeply appreciates the leadership and efforts put forth by you and your 
Subcommittee to advance this mission.
    The Authority respectfully requests your Subcommittee's 
consideration and support of the following Federal initiatives:

Integrated U.S. Customs and Border Protection (CBP)/USDA Animal and 
        Plant Health Inspection Service (APHIS) Facility
    Two years ago, our Nation took a bold advancement in border 
protection by unifying all Federal entities with border 
responsibilities under one frontline border agency--the U.S. Bureau of 
Customs and Border Protection (BCBP) within the Department of Homeland 
Security. Identified as ``One Face at the Border'', this historic 
initiative merged the personnel and functions of the former Customs 
Service, the Immigration and Naturalization Service, the Animal and 
Plant Health Inspection Service and the U.S. Border Patrol to enhance 
efficiencies and create greater accountability in one seamless border 
service. Today's CBP officers are cross-trained to perform all 
functions previously fulfilled by the individual legacy agencies.
    On March 1, 2003, CBP designated a Port Director at each port of 
entry to implement a single, unified chain of command. At Orlando 
International Airport, an officially designated Port of Entry, over 230 
employees of the legacy agencies were brought under the single command 
of our Area Port Director. Although functions have been merged to 
create a seamless border and inspection service, operational locations 
are still stretched across the airport's 13,247 acres at multiple 
locations.
    The primary CBP facility, constructed almost a decade ago, is 
located on the west side of the airport in the Tradeport Drive area. As 
a result of the BCBP initiative, this facility is being utilized to its 
maximum capacity and does not have the flexibility to accommodate the 
realignment and future growth of staffing. INS functions are housed in 
an independent facility along the west side of the airport, as is the 
USDA Animal and Plant Inspection Service personnel.
    The Greater Orlando Aviation Authority respectfully requests 
funding under the Department of Homeland Security to construct a 28,000 
square foot companion facility adjacent to the existing CBP facility in 
order to promote a campus-style complex. This facility will accommodate 
capacity needed by CBP and bring existing APHIS staff and inspection 
facilities closer to CBP to increase interaction and accessibility. 
Such a facility will ensure improved communications and efficiencies 
needed to implement the Department's mission to protect the security of 
our borders and homeland.
    The Authority respectfully requests the Committee to include the 
following line item in the fiscal year 2006 DHS budget:
    ``Design and Construction of an Integrated U.S. Customs and Border 
Protection/USDA APHIS Facility at Orlando International Airport--
$9,000,000''

Additional U.S. Customs and Border Protection Staffing Positions
    Orlando International Airport continues to steadily rebound from 
the events of September 11, 2001 and significantly outpace passenger 
growth estimates. During the past year, our airport has moved upward in 
performance rankings to now lead as the 12th busiest commercial 
passenger service airport in the Nation and the 20th busiest in the 
world. Orlando International Airport has also surpassed Miami 
International Airport as Florida's busiest commercial service airport.
    As Orlando is a top destination choice of passengers, it is no 
surprise that Orlando International Airport also ranks as our Nation's 
5th largest Origination and Destination (O&D) Airport. As O&D 
passengers are required to undergo more security screening requirements 
than connecting passengers because they enter the sterile security area 
for the first time, appropriate levels of staffing are needed to ensure 
the efficient and timely flow of passengers through the screening and 
inspection process.
    CBP passenger wait times at Orlando International Airport routinely 
exceed the national average. Additional inspectors are needed to 
accommodate the airport's continuing growth. Annual CBP Inspector 
expenses are approximately $150,000 per inspector per year. Federal 
funding in the amount of $750,000 is needed to support the addition of 
five new CBP officers.
    The Authority respectfully requests the Committee to include the 
following line item in the fiscal year 2006 DHS budget:
    ``Additional CBP staffing positions at Orlando International 
Airport--$750,000''

Installation of In-Line Checked Baggage Explosive Detection System 
        (EDS)
    Over 2 years ago, the Authority received concept approval from the 
Transportation Security Administration (TSA) for the installation of an 
In-Line Checked Baggage Explosive Detection System (EDS); however, the 
TSA has not issued a Letter-of-Intent to proceed with installation of 
this system due to lack of available Federal funding. Since the design 
has already been completed, the system could be installed and fully 
operational within two years if Federal funding is obtained.
    Orlando International Airport (OIA) currently has 41 EDS machines 
located throughout the airport, with the majority in ticket lobbies and 
other passenger areas of the terminal. The physical size of each 
machine and the footprint support area consumes a significant portion 
(10 to 15 percent) of the terminal's capacity needed to process and 
move passengers efficiently. The airport has already implemented 
substantial renovations to the main terminal in partnership with the 
Federal Aviation Administration to maximize the flow and efficiency to 
the greatest extent possible. The existing placement of the EDS 
equipment negates the effectiveness of this substantial investment and 
may lead to the airport exceeding capacity levels earlier than 
projected.
    Installation of an In-Line system would result in a significant 
reduction in the number of EDS machines needed and the number of 
personnel required to manual operate the integrated system. Of the 
1,000 plus TSA personnel currently stationed at the airport, almost 
half (50 percent) are dedicated to the operation of the free standing 
EDS machines. Initial investments by TSA for in-line systems clearly 
result in immediate and long-term operational cost savings to the 
Administration.
    OIA primarily serves origination and destination travelers, who 
undergo more screening requirements than connecting passengers. O&D 
passengers represent approximately 95 percent of all passengers at OIA. 
This high level of O&D activity is expected to continue. The Airport 
accommodates more leisure travelers, who typically travel with a 
greater number of bags and unusually-sized accompaniments such as golf 
clubs, water skis, surfboards, etc. Under the current system, 
passengers must wait in airline check-in lines to obtain a boarding 
pass; then carry their luggage to the nearest EDS machine. Overall, 
installation of an In-Line EDS at Orlando International Airport would 
result in significant operational cost savings for TSA; recovered 
terminal capacity for the airport; and a return to customer-friendly 
expedited passenger processing. The total cost of the In-Line EDS Phase 
II System is estimated at $100 million.
    The Authority respectfully requests the Committee to include 
additional funding for the installation of In-Line Checked Baggage 
Explosive Detection Systems to enable TSA to execute additional Letters 
of Intent to airports such as Orlando International Airport.

Justification and Closing
    Orlando International Airport remains steadfast in its commitment 
to help our Nation in its mission to protect our borders and homeland 
while enabling safe, efficient and timely movement of passengers and 
commerce.
    Orlando International Airport (OIA) is one of the Central Florida's 
primary assets and has been designated as an U.S. Security Category X 
airport. In 2004, OIA served approximately 31.1 million passengers, 
surpassing Miami International Airport as the busiest commercial 
passenger airport in Florida. Additionally, OIA is the 12th busiest 
commercial service airport in the Nation and the 20th busiest in the 
world. In terms of origin and destination (O&D) passenger traffic at 
domestic airports, OIA ranked 5th behind Los Angeles International and 
traditional airline hub airports such as Las Vegas' McCarran 
International, Atlanta's Hartsfield International and Chicago's O'Hare 
International. O&D passengers represent approximately 95 percent of all 
passengers at OIA. This high level of O&D activity is expected to 
continue.
    OIA has scheduled service to 82 non-stop domestic destinations and 
19 non-stop international destinations, promoting increased airline 
service and competitive fares. The largest rental car market in the 
world is located at OIA. The airport shares a unique relationship with 
the regional economy. A completed Economic Impact Study determined OIA 
generates a $20.7 billion annual economic impact on Central Florida and 
is responsible for 62,100 direct and indirect jobs.
    The Authority expresses its gratitude for the opportunity to 
present this testimony to your Subcommittee. We look forward to working 
with you in advancing these safety and security initiatives that will 
benefit the National Aviation System.
                                 ______
                                 
                                 ______
                                 

   Prepared Statement of the International Association of Emergency 
                                Managers

    Chairman Gregg, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for allowing me this opportunity to provide 
testimony on the President's fiscal year 2006 budget request for the 
Department of Homeland Security.
    I am Dewayne West. As the Director of Emergency Services for 
Johnston County, North Carolina, I supervise the Emergency Management 
program, the Fire Marshal's Office and Emergency Medical Services. I 
currently serve as the President of the International Association of 
Emergency Managers (IAEM) and am providing this testimony on their 
behalf. I am also a Certified Emergency Manager (CEM), a member and 
past president of the North Carolina Emergency Management Association, 
and the Vice Chairman of the Emergency Management Accreditation 
Commission (EMAP). I was recently appointed by the Governor to serve on 
the N.C. State Emergency Response Commission (SERC).
    The International Association of Emergency Managers has over 2,600 
members including emergency management professionals at the State and 
local government levels, the military, private business and the 
nonprofit sector in the United States and in other countries. Most of 
our members are city and county emergency managers who perform the 
crucial function of coordinating and integrating the efforts at the 
local level to prepare for, mitigate the effects of, respond to, and 
recover from all types of disasters including terrorist attacks. Our 
members include emergency managers from large urban areas as well as 
rural counties.
    We appreciate the support the Subcommittee has given to emergency 
management in the past 2 years and especially appreciate your support 
for the Emergency Management Performance Grants and your strong support 
for and the all hazards mission.
    We respectfully request your assistance on two issues.
    Emergency Management Performance Grants (EMPG)
  --Request the $10,000,000 funding cut be rejected and the amount 
        increased to $280 million to begin addressing the shortfall.
  --Request that EMPG funding be maintained in a separate account as in 
        the fiscal year 2005 Congressional action and not combined with 
        other grant programs.
    Hazard Mitigation Grant Program (HMGP)
  --Request that the legislative language proposed in the budget to 
        reduce the formula for States with enhanced plans from 20 
        percent to 12.5 percent be rejected.
  --Request HMGP formula for States with basic mitigation plans be 
        restored to 15 percent of FEMA eligible cost.

             EMERGENCY MANAGEMENT PERFORMANCE GRANTS (EMPG)

    Increase funding for EMPG.--Appropriations Committee report 
language referred to the program as ``the backbone of the Nation's 
emergency management system.'' In order to maintain this system and 
build the capacity required to meet the greatly increasing demands, 
additional investment is needed.
    However, the President's Budget request for fiscal year 2006 
proposes to reduce the funding from the $180,000,000 appropriated in 
fiscal year 2005 to $170,000,000. According to a biennial study 
conducted by the National Emergency Management Association (NEMA) in 
2004 there is a shortfall of $264 million. We respectfully request that 
EMPG be increased $100 million over the fiscal year 2005 level for a 
total of $280,000,000 to begin addressing this shortfall.
    The Emergency Management Performance Grants (EMPG) constitute the 
only source of direct Federal funding for State and local governments 
to provide the foundation for basic emergency coordination and planning 
capabilities for all hazards, including those related to homeland 
security. The grants are pass through grants to State and local 
emergency management offices and are used predominately for personnel 
who plan, train, coordinate, and conduct exercises and other functions 
essential to effective preparedness, mitigation, response and recovery 
efforts.
    EMPG grants require a 50 percent State or local match. Currently 
many local jurisdictions are receiving 20 percent or less. In addition 
many local jurisdictions receive no funding because of shortage of 
funds.
    Natural disasters continue to remind us of the great need for 
preparedness and response coordination. In 2004 alone there were 68 
federally declared disasters and 7 emergencies and local officials 
responded to many more disasters that were not federally declared. The 
size and scope of Hurricanes Charley, Frances, Jeanne and Ivan 
underscored the need for a strong national emergency system. Eight 
hundred personnel from thirty-eight States provided support to the 
affected States and communities through the Emergency Management 
Assistance Compact.
    State and local emergency management programs are in desperate need 
of financial support if they are to continue to meet the requirements 
of all hazard planning and coordination as well as implement the 
President's homeland security strategy in States, counties, cities and 
neighborhoods across America. Emergency managers must meet the 
challenge of bringing the emergency response planning and organizations 
in their States and communities in line with new Federal requirements 
contained in the National Incident Management System (NIMS), the 
National Response Plan (NRP), and numerous new and pending national 
standards for preparedness and response.
    The new security concerns arising from the current world situation 
make the coordination and unifying role served by emergency managers 
more important than ever. Given continued support and funding, 
emergency managers have the skills, the expertise, and the willingness 
to rise to the planning and coordinating challenges presented by the 
full range of hazards affecting their communities.
    Maintain EMPG as a separate account.--We also urge you to continue 
to maintain EMPG as a separate account. The President's budget includes 
this program in the ``State and Local'' account with a number of other 
grant programs. EMPG is different from the other programs in this 
account. EMPG has existed for over 50 years and supports all hazards 
emergency management, including terrorism. In addition, it is a 
performance based continuing program with deliverables and requirements 
which must be met in order to receive funding the next year.

                 HAZARD MITIGATION GRANT PROGRAM (HMGP)

    The Hazard Mitigation Grant Program which is authorized by Section 
404 of the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act provides funding to States following a Presidentially declared 
disaster in an amount equivalent to a percentage of eligible FEMA 
funds. The monies are provided by the President's Disaster Relief Fund 
and the costs are shared 75 percent Federal and 25 percent State or 
local. These funds are critical to reducing the costs and impacts of 
future disasters by breaking the cycle of damage and repair and damage 
again.
    Reject funding cut for States with enhanced plans.--The fiscal year 
2006 budget request in the Disaster Relief account in the Emergency 
Preparedness and Response Directorate proposes the following 
legislative language which would amend the Stafford Act: Provided, that 
the post-disaster hazard mitigation set aside for States is 7.5 percent 
of eligible disaster costs: Provided further, That States with an 
Enhanced Mitigation Plan may receive up to 12.5 percent of eligible 
disaster costs.
    This language would reduce funding available for post disaster 
mitigation to States with approved enhanced mitigation plans from an 
amount equivalent to 20 percent of eligible FEMA disaster costs to only 
12.5 percent. Since the passage of the Disaster Mitigation Act of 2000 
which added the 20 percent incentive, FEMA has strongly encouraged 
States to work toward these enhanced plans. The FEMA regulations stated 
``A State with a FEMA approved Enhanced State Mitigation Plan at the 
time of a disaster declaration is eligible to receive increased funds 
under the HMGP, based on 20 percent of the total estimated eligible 
Stafford Act disaster assistance.'' The States of Missouri, Oklahoma, 
and Washington have achieved this goal and others have been diligently 
working toward it. This effort required a very significant commitment 
of resources from already overburdened State and community officials to 
develop a comprehensive mitigation program and requires States to take 
on significant additional responsibility. However, many States have 
committed to the additional effort because of the 20 percent incentive 
provided by Congress. The ``carrot'' of increased funding has been in 
the law over 4 years. Now that States have made the effort to achieve 
the goal, the Federal commitment should be kept. We urge you to reject 
the language lowering the percentage for States with Enhanced 
Mitigation Plans.
    Restore Hazard Mitigation Grant Program (HMGP) to 15 percent.--The 
President's budget language continues the HMGP program at 7.5 percent. 
The fiscal year 2003 Omnibus Appropriations bill changed the formula 
used to determine hazard mitigation funding from 15 percent to 7.5 
percent of eligible disaster costs and provided funds for a new 
nationally competitive predisaster mitigation grant program. Citizens 
and elected officials are most receptive to undertaking projects and 
initiatives that prevent the loss of life and reduce destruction of 
property immediately after a disaster has occurred. States and 
communities regularly report that the demand for post-disaster grants 
exceeds the available funding. Now, with the HMGP funding reduced by 
half, many more of these post disaster opportunities are being missed. 
We urge you to restore HMGP to 15 percent.
    Thank you for giving us the opportunity to provide this testimony. 
We would welcome the opportunity to provide additional information to 
the Subcommittee.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

                              INTRODUCTION

    Thank you Chairman Gregg, Ranking Member Byrd, and distinguished 
members of the Committee for allowing me the opportunity to provide you 
with a statement for the record on the Department of Homeland Security 
(DHS) fiscal year 2006 budget. I am David Liebersbach, the President of 
the National Emergency Management Association and Director of the 
Alaska Division of Homeland Security and Emergency Management. In my 
statement, I am representing the National Emergency Management 
Association (NEMA), whose members are the State emergency management 
directors in the 50 States, the U.S. territories, and the District of 
Columbia. NEMA's members are responsible to their governors for 
emergency preparedness, homeland security, mitigation, response, and 
recovery activities for natural, man-made, and terrorist caused 
disasters.
    Over the past year, our Nation's emergency management system has 
been tested by the extensive natural disasters that we have faced. In 
all, there were 68 major disaster declarations, seven emergency 
declarations, and 43 fire management assistance declarations. Our 
Nation bravely faced and responded to one of the most active hurricane 
seasons with impacts by tropical Storm Bonnie, Hurricanes Charley, 
Frances, Gaston, Ivan and Jeanne, while also dealing with other 
disasters like flooding, tornadoes, and earthquakes. We also watched 
the aftermath of the tsunami in the Indian Ocean and saw graphically 
illustrated the importance of catastrophic disaster planning and 
maintaining our own emergency preparedness and response system. In 
Alaska, we experienced the largest fire season ever, with fires 
impacting over 6.5 million acres and 10,000 square miles. At the same 
time, emergency management continues to prepare for the threat of 
terrorism with new requirements coming from the Federal government such 
as updating State plans to reflect the National Response Plan (NRP), 
training emergency responders on the new National Incident Management 
System (NIMS), and implementing the National Preparedness Goal mandated 
by Homeland Security Presidential Directive 8 (HSPD 8) on National 
Preparedness with no additional Federal financial assistance to meet 
Federal mandates. The multi-hazards emergency management system 
continues to be the means to practice and exercise for devastating acts 
of terrorism, while at the same time preparing the Nation for 
hurricanes, tornadoes, hazardous materials spills, and floods. We 
respectfully ask for your Committee to consider the role of emergency 
management as you address the fiscal year 2006 appropriations.
    All-hazards preparedness is in danger of being regarded as a thing 
of the past as more focus is being placed on terrorism. We must ensure 
that our capability to deal with many hazards, including terrorism 
remains intact and that we do not shift our focus to preparedness for a 
single peril. The capability to coordinate an effective response to an 
event does not change by the type of disaster. The HSPD 8 process shows 
the increased focus on terrorism with only 2 of the 15 disaster 
scenarios representing traditional natural disasters. The all-hazards 
approach relies upon the maintenance of plans, trained personnel to 
carry them out, and supporting infrastructure in the form of emergency 
operations facilities with inter-operable communications. We must 
continue this approach in practicing and exercising for all 
emergencies, to include devastating acts of terrorism, as well as day-
to-day emergencies. We cannot afford to lose the system we have in 
place to deal with all disasters in order to build new infrastructure 
for homeland security's sake.
    The Department of Homeland Security budget provides critical 
support to State and local emergency management programs through actual 
dollars, grants, and program support. This year, NEMA would like to 
address three main issues with the proposed Federal budget for 
Department of Homeland Security.
  --Extreme concern for proposed cuts to the Emergency Management 
        Performance Grant (EMPG) program while requirements increase 
        for State and local governments;
  --The need to address massive shortfalls in updating Emergency 
        Operations Centers (EOCs); and
  --Concern about the reduced formula for the post-disaster Hazard 
        Mitigation Grant Program (HMGP).

              EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING

    The Emergency Management Performance Grant (EMPG) is the only all-
hazards emergency preparedness grant program in support of capacity 
building at the State and local level. At a time when we are aiming to 
build the system, additional resources and funding is needed to sustain 
State and local emergency management. The State and local government 
partnership with the Federal Government to ensure preparedness dates 
back to the civil defense era, yet increased responsibilities over the 
last decade have fallen on State and local governments. With the recent 
expanded focus on terrorism and the increased demands of the Federal 
Government to assist in implementation of Federal initiatives like the 
NRP, the NIMS, and HSPD 8, EMPG becomes more important as a means to 
ensure State and local involvement and compliance with new systems.
    The President's budget proposal will have a devastating impact on 
the Nation's emergency management system at the same time that 
responsibilities are increasing for new and emerging hazards. The 
proposal decreases funding for the EMPG program by $10 million. These 
cuts mean that emergency management would be saddled with increased 
mandates, while coping with decreases to an already modest budget. In 
budget consideration for fiscal year 2003 and 2004, Congress has 
affirmed the importance of EMPG in appropriations bills in language 
addressing the significance of the program and increased the levels of 
funding for the program twice. Prior to these increases in fiscal year 
2003 and 2004, the program had been straight lined for over a decade. 
Additionally, Congress affirmed the intent of the program as all-
hazards and dedicated to supporting personnel during consideration of 
the fiscal year 2005 budget. NEMA is appreciative of Congress' 
recognition of the EMPG program, but this year we respectfully ask that 
Congress aggressively address the programs shortfalls with an 
additional $100 million in funding for EMPG for fiscal year 2006.
    EMPG is the only all-hazards program that State and local 
governments can use to build their emergency management capacity. The 
grants can be used for personnel, planning, training, exercises, 
warning systems, emergency operations centers, public outreach, and 
interagency coordination. EMPG is a flexible program that allows State 
and local governments to tailor funds to address the specific risks and 
needs of their jurisdiction. While it is called a grant, EMPG is really 
a 50/50 cost-share system which ties together the emergency management 
system of local, State, and Federal Governments. Every dollar 
contributed by the Federal Government is doubled with State and local 
contributions. EMPG's modest Federal increases in 2003 and 2004 helped 
the program grow, but shortfalls continue to force an unequal burden on 
state and local governments. States are continuing to increase their 
out of pocket costs in order to ensure there is adequate funding for 
local programs. In fact, a 2004 NEMA study found that there is 
approximately a $264 million shortfall in EMPG for all 50 States. This 
means that many communities that would like to implement a full-time, 
professional emergency management capability cannot do so because of 
shortfalls in Federal funding. Further, EMPG is primarily used as a 
pass-through program for local governments, so the shortfall affects 
our smallest localities that are often those most in need of emergency 
preparedness planning. Currently, States and local governments are over 
matching the Federal Government's commitment to national security 
protection through EMPG by $96 million according to the same 2004 NEMA 
study.
    During last year's hurricane season, the interdependencies of the 
Nation's emergency management system were tested through the Emergency 
Management Assistance Compact (EMAC). The state-to-state mutual aid 
compact enabled 38 States to provide assistance in the form of more 
than $15 million in human, military, and equipment assets and over 800 
personnel to support the impacted States for over 85 days of continuous 
response operations. The nature of the Nation's mutual aid system 
vividly shows the need for all States to have appropriate capabilities 
for all disasters. Additionally resources are needed to build emergency 
response capabilities on a national basis and to ensure the system can 
handle the demand of natural disasters and other emergencies no matter 
where they occur. EMPG is the only means to support this assistance 
that can be offered by other States in the face of disaster through 
adequate preparedness. EMPG ensures all States have funding to develop 
and maintain a base level capacity that can be utilized by other States 
for mutual aid.
    While terrorism continues as a major focus at this time, we must 
balance preparedness efforts by integrating terrorism as one of the 
many threats facing our Nation, rather than the current approach of 
making all other preparedness efforts a subset of terrorism. Further, 
Homeland Security Presidential Directive 8 States that, ``to the extent 
permitted by law, Federal preparedness assistance will be predicated on 
the adoption of statewide comprehensive all-hazards preparedness 
strategies.'' The all-hazards approach cannot be dismissed based upon 
the assumption that one threat is greater and more significant than the 
other. After all, no one really has a crystal ball to predict what the 
next disaster or emergency may be. Yet, the Federal requirements tied 
to homeland security are not funded. Focus and resources will have to 
be taken away from other preparedness initiatives in order to address 
these new demands. Our system for day-to-day public safety and homeland 
security must be mutually supportive and nimble enough to address any 
hazard.
    Last year, Congress affirmed the Department of Homeland Security's 
(DHS) intent to create a ``one stop shop'' for homeland security 
funding. As the fiscal year 2005 funding has been processed, NEMA has 
been working alongside the Office of State and Local Coordination and 
Preparedness (OSLCP) to ensure that the all-hazards intent of the 
program is not changed. Additionally, OSLCP is looking at ways to 
improve the program also in coordination with NEMA. However, because 
DHS is a new Department with a new and developing financial management 
system the changeover has not been without significant delays in the 
amount of time that it takes for States to get their funding. In fact, 
homeland security funding including EMPG is processed through the 
legacy Department of Justice system that was used before the Office for 
Domestic Preparedness was transferred into DHS. Additionally, 
integrating EMPG funding into the homeland security grant program means 
that in more than half of the States, another layer of bureaucracy is 
added because only half of the Nation's emergency managers serve as the 
State administering agency (SAA). In these cases, it takes even longer 
for emergency management agencies to access the EMPG funding once it is 
awarded. This has a domino effect as delays are then experienced by 
local governments that receive EMPG monies. NEMA has received reports 
of situations in which county emergency management programs were on the 
verge of shutting their doors because they had expended their match 
funds while Federal funding continued to lag. In most States, EMPG 
funds were not received until 6 months into the Federal fiscal year. 
NEMA hopes to work collaborately with Congress and OSLCP to resolve 
these issues in the coming year to ensure swifter grant awards in 
fiscal year 2006. Specifically, we ask that Congress de-couple the 
Emergency Management Performance Grant which is an all-hazards, 50/50 
match program from the homeland security grant program which is 
terrorism focused with different and longer-term requirements.
    The Federal Government must continue the commitment to ensuring 
national security though all-hazard preparedness. Without adequate 
numbers of State and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Congress must ensure predictable and adequate funding levels for the 
program.

                      EMERGENCY OPERATIONS CENTERS

    Emergency Operations Centers (EOCs) serve as the nerve center as 
well as the State and local government coordination point during 
disasters and emergencies. In fiscal year 2002 and 2003, a total of $81 
million was appropriated to the Federal Emergency Management Agency to 
address Emergency Operations Centers (EOCs) improvements. The $81 
million was allocated to States to begin the planning process to assess 
the necessary infrastructure and security improvements and security 
measures to be taken. Since then, no dedicated Federal funding has been 
provided for the implementation of these plans. Many State and local 
facilities are out of date; do not have the interoperable technology to 
coordinate with the Federal Government or among State and local levels; 
and lack adequate security features. Federal assistance is necessary to 
match State and local commitments to upgrade their EOCs as an integral 
part of the Nation's emergency response system. According to a 2004 
NEMA survey, it is projected that more than $1.6 billion will be needed 
to construct and maintain State and local primary and alternate EOCs 
over the next 2 to 5 years. This includes the costs to consistently 
upgrade equipment, buildings, and software, train personnel, and 
conduct operations during emergency and non-emergency situations. NEMA 
calls on Congress to assist in addressing this shortfall and immediate 
need. When Congress did begin to address this shortfall, the match 
requirement was lowered to 25 percent for State and local governments. 
Congress should make a $160 million commitment this year as a down 
payment to addressing the shortfall, or EOCs will fall further behind.

        HAZARD MITIGATION GRANT PROGRAM & PREDISASTER MITIGATION

    NEMA supports efforts by the Congress and the Administration to 
continue both pre- and post-disaster mitigation activities. NEMA calls 
on Congress to restore the post-disaster Hazard Mitigation Grant 
Program (HMGP) formula to 15 percent and maintain the formula at 20 
percent for ``enhanced plan'' States. Disasters present the opportunity 
to learn from past mistakes and to also take advantage of the lessons 
learned during the disaster. This means funding for utilizing 
elevations and buy-outs as tools and building warning systems and 
shelters.
    Effective February 20, 2003, Congress changed the formula for post-
disaster mitigation grants from 15 percent to 7.5 percent. This change 
limits the availability of funds for post-disaster mitigation and 
prevents the lessons learned from disasters from being immediately 
incorporated into mitigation projects to prevent loss of life and 
destruction of property. The months immediately following disasters 
provide unique opportunities to efficiently incorporate risk reduction 
measures in a very cost-effective manner, in many cases lowering the 
overall cost of the project by leveraging other funding sources 
including insurance settlements. We ask that you restore the formula to 
15 percent this year in order to address mitigation needs.
    This year, the Administration is proposing to decrease the post-
disaster formula for ``enhanced plan'' States as well. Last year, all 
States were required to complete hazard mitigation plans and to have 
them approved by the Federal Emergency Management Agency (FEMA). As a 
result of changes made to the Stafford Act in the Disaster Mitigation 
Act of 2000, States could opt to do more work and planning in order to 
qualify for enhanced plans. Thus far, three States (Missouri, 
Washington, and Oklahoma) have qualified to receive the 20 percent 
formula as enhanced plan states, and many more States are pursuing 
enhanced plans for approval. But, the Administration is proposing to 
lower the enhanced plan formula to 12.5 percent of disaster costs, 
reducing the incentives for States to make the investment to seek 
enhanced plans. Further, this will limit even more the mitigation 
opportunities that are addressed in disaster-prone States.
    The HMGP has proven to be a highly effective tool in steering 
communities toward risk reduction measures, in many cases breaking 
repetitive loss cycles that have cost other Federal disaster relief 
programs multiple times. Cost-benefit analysis is currently a 
requirement for predisaster mitigation programs. We must not lose these 
opportunities to initiate projects to enhance our communities and 
reduce future disaster costs. HMGP must be restored and the enhanced 
plan formula must be maintained.

                    HOMELAND SECURITY GRANT PROGRAM

    Congress has made significant attempts to ensure that the Homeland 
Security Grant Program is streamlined and provides greater flexibility. 
We appreciate the attention and funding that the Congress has given to 
ensuring emergency responders are adequately prepared for domestic 
terrorism threats. Emergency responders are better prepared today to 
face the various threats associated with terrorism because of the 
Federal commitment to address the war on terrorism that is being played 
out in our States, cities, and towns. States continue to take an all-
hazards approach to disaster preparedness as we have integrated our 
domestic preparedness efforts into the proven systems we already use 
for dealing with both man-made and natural disasters.
Funding Levels
    We continue to be concerned about cuts in the President's budget 
proposal for homeland security that has been dedicated to improving 
emergency responder preparedness for homeland security. The Federal 
Government must maintain its commitment to ensure that homeland 
security preparedness continues and the Constitutional responsibility 
to maintain a national defense is not compromised. Continuity of effort 
can only be maintained by State and local governments with adequate 
Federal support, especially when it deals with the front line emergency 
responders. Reductions in funding will immediately be translated into 
reductions in prevention, protection, and preparedness activities. 
Regional collaboration and mutual aid are critical components of the 
National Preparedness Goal. If the Federal Government provides adequate 
funding to the States for the necessary resources to be put in place to 
respond to any event, then the Federal Government is supporting one of 
the key overarching goals of the National Preparedness Goal. Further, 
continued or increased funding should not take away from traditional 
all-hazards capacity building programs for public safety, public 
health, and emergency management.

Congressional Legislation to Simplify the Grants Process
    As Congress considers legislation to address and reform the 
Homeland Security Grants, we ask that you take NEMA's suggestions into 
consideration. The suggestions include the following:
  --Each State must have a base minimum level of funding to ensure the 
        capacity to respond to any event. Such capacity is necessary 
        for homeland security because of the changing nature of the 
        threat and also because of the importance our emergency system 
        places on mutual aid to respond to events;
  --All efforts to increase emergency management capacity must be 
        coordinated through the States to ensure harmonization with the 
        State emergency operations plan, ensure equitable distribution 
        of resources, and to synthesize resources for intra-state and 
        inter-state mutual aid. Also, the Stafford Act, which governs 
        the way disaster assistance is allocated, successfully uses 
        States and Governors as the managers of Federal disaster relief 
        funds for local governments, which can become overwhelmed and 
        in need of assistance when disasters occur.
  --States understand the need to get funding quickly to the first 
        responders and have long coordinated statewide and regionally 
        to ensure adequate State assistance to local governments for 
        emergency preparedness and response; and
  --Traditional emergency management capacity building programs like 
        EMPG must be continued as separate and distinct from the 
        homeland security grants programs.

Fiscal Conditions and Match Requirements
    Further, because the war on terrorism is a national emergency and 
States and local governments continue to be in the toughest fiscal 
situations since the deep recession in the early 1980s, we must be wary 
of programs that would require significant matches. In fact, for local 
governments to meet the match would be even more difficult given their 
fiscal constraints. If a significant match is required, the application 
of this initiative will only go to those agencies and governments that 
can fiscally afford the match and not necessarily where the need is 
greatest. If a match is necessary, we would suggest that the match be 
non-fiscal or in the form of a deliverable as opposed to soft or hard 
dollars. Waivers may be a way for the Federal Government to also 
address the lack of capital for a match when State and local 
governments are experiencing fiscal distress.

Flexibility for Personnel to Manage the Program
    Greater flexibility to use some of the first responder grants for 
personnel both at the State and local level to manage the programs is 
critical to completing the preparedness mission. As an existing funding 
stream, EMPG is used in part to fund State and local staff to manage 
critical programs including the homeland security grants. The First 
Responder Grants should recognize that personnel are necessary to 
manage these programs, particularly when rigid deadlines are set for 
obligating millions of dollars and accountability is paramount. 
Additionally, new needs such as intelligence fusion personnel must be 
recognized. As HSPD 8 deadlines loom, States will be faced with a new 
set of requirements that could be tied to funding. Simply hiring 
contractors to do the work is not a long-term solution for building and 
maintaining national preparedness capabilities. State and local 
government, emergency management, and responder organizations are 
already working at a maximum capacity within existing resources and 
need Federal support for more than the purchase of equipment and 
exercises. Flexibility based on strategic approaches should be the 
norm, not single-issue, narrowly focused grants.

                 NATIONAL HOMELAND SECURITY CONSORTIUM

    The National Homeland Security Consortium is a voluntary, education 
and outreach group representing State homeland security advisors, State 
and local law enforcement, emergency management, fire, public health, 
EMS, National Guard, public works, emergency communications, State and 
local elected officials and private sector partners. The Consortium was 
established in 2003 by the National Emergency Management Association 
and was endorsed by former DHS Secretary Tom Ridge in September 2004. 
This comprehensive group of subject matter experts offers itself as a 
technical resource and sounding board for the Department of Homeland 
Security as they develop and implement new policies and programs. The 
Consortium represents State and local officials on the ground, in city 
hall and in the statehouses charged with the responsibility of homeland 
security and overall public safety. The group is meeting again in May 
to provide another opportunity for all disciplines and levels of 
government involved in emergency prevention, preparedness, response and 
recovery to come together to continue to share information, develop 
solutions to common challenges and build relationships that will 
enhance State and local homeland security capabilities. The Consortium 
serves as a model for intergovernmental coordination and demonstrates 
the commitment of State and local governments to collaboratively 
address the complex challenges of homeland security.

                               CONCLUSION

    While we as a Nation are fortunate that another year has passed 
without a terrorist incident on our Nation's soil, we must continue to 
build national preparedness efforts with a multi-hazard approach. We 
must be prudent and thoughtful in addressing homeland security 
enhancements to our existing emergency preparedness and response 
system. In this year's appropriations process Congress will make 
critical decisions that shape the future of emergency management in 
this country. As you begin your consideration, we ask you to recognize 
the importance of adequately funding the EMPG program in building 
capacity through people at the State and local level for all disasters. 
I thank you for the opportunity to testify on behalf of NEMA and 
appreciate your partnership.
                                 ______
                                 

   Prepared Statement of the National Flood Determination Association

    Mr. Chairman and members of the Subcommittee, the National Flood 
Determination Association (NFDA) strongly supports the Budget Request 
for the Flood Map Modernization Presidential Initiative. This major 
project to update and modernize the Nation's flood risk maps is 
critical to the functioning of the National Flood Insurance Program 
(NFIP) and to protection of property through effective floodplain 
management.
    The NFDA is a professional association of companies which provide 
flood zone determinations to lenders for compliance with the mandatory 
purchase requirements of the NFIP. The association represents some two 
thirds of the industry and has implemented a certification program 
containing standards for flood zone determination companies. Because 
the FEMA flood maps are the official documents for compliance with the 
NFIP, flood determination companies are probably the most frequent 
users of the maps. A survey of the NFDA membership reveals that it has 
completed approximately 33,000,000 determinations in the year 2003.
    Flood maps are used both to determine which properties are in or 
out of a Standard Flood Hazard Area (SFHA) and also are used by county 
and community officials to plan development and to reduce future risk.
    Approximately 70 percent of the maps are 5 years and older, 45 
percent at least 10 years old, and more that 2,200 flood prone 
communities remain without flood hazard maps. The current process 
utilized by FEMA to produce an updated map is 58 months. More than 
20,000 map panels identified as requiring updates, meaning they have 
outdated or inadequate flood hazard data requiring updates through 
field reconnaissance, engineering analysis and floodplain mapping 
utilizing improved analysis methodologies. The detailed flood studies 
will include ``approximately studied'' and ``unstudied'' flood-prone 
communities. There are more than 40,000 maps with adequate flood hazard 
data but inadequate non-engineering data and reference features such as 
roads. New elevation reference marks will be developed and implemented 
emphasizing the use of GPS surveying technology and a network of 
approximately 580,000 benchmarks.
    Complaints to lenders, flood determination companies, and realtors 
dramatized the problems caused for real estate transactions when maps 
do not reflect true risk. Over a 10 or 20 year period, development, 
road building and re-grading of land significantly alter flood risk.
    The NFDA has been extremely gratified that the Administration has 
recognized the real need to update and modernize the flood maps. As the 
Map Modernization project develops, however, we have some concerns 
about the update component. Updating the maps, particularly in high 
growth areas, requires a full restudy which includes engineering, 
surveying, hydrology and hydraulics. It should be noted that such 
extensive restudy is not needed everywhere as the water flow and 
retention properties may not have changed much over the years. Because 
the updates require more time and investment, we are worried that 
insufficient analysis is being undertaken in order to complete action 
on maps more quickly. The quantitative requirements by which the map 
modernization is judged may be moving away from the restudies and 
toward limited revisions and digitization. Such a newly issued map, 
with a new date, can be very misleading. Flood determinations done 
using these ``new'' maps will continue to generate complaints.
    To do justice to the national investment in good flood risk maps, 
there may need to be some adjustment to the quantitative standards by 
which the program is evaluated. It may not be possible to complete the 
job in the originally projected 5 years.
    Some technical coordination issues have also become apparent. It is 
key that the map modernization process and product reflect the needs 
and requirements of map users. For this reason, we strongly urge the 
establishment of a stakeholder advisory group. This could be modeled on 
the successful Technical Mapping Advisory Board established for 5 years 
by the Flood Insurance Reform Act of 1994. It is our understanding that 
FEMA has been looking into creating this kind of advisory board. We 
urge the Committee to support this effort.
    We were aware of a possibility last year that certain (at the time) 
funds not obligated to map modernization could be redirected to other 
needs of the Department of Homeland Security. Because it is becoming 
very clear that the Nations' flood map modernization needs are 
extensive, we are concerned about any redirection of funds appropriated 
for the Flood Map Modernization Initiative.
    The National Flood Determination Association remains committed to 
working with FEMA to achieve the updated, modernized national flood 
risk maps we all need. We urge the Committee to approve the full budget 
request of $200 million.
                                 ______
                                 

  Prepared Statement of the Ohio Department of Chiefs of Police, Inc.

    Chairman Gregg, Ranking Member Byrd and Distinguished Members of 
the Subcommittee, thank you for the opportunity to provide a statement 
for the record regarding the fiscal year 2006 budget proposal for the 
Department of Homeland Security.
    Our names are Director Kenneth L. Morckel, Ohio Department of 
Public Safety and Director Todd N. Wurschmidt, Ph.D., Ohio Association 
of Chiefs of Police (OACP). Director Morckel is the designated head of 
Homeland Security efforts in Ohio as appointed by Governor Bob Taft. 
Dr. Wurschmidt oversees staff operations for the OACP and is involved 
in managing the statewide effort and information sharing between Ohio 
law enforcement agencies.
    We respectfully request consideration on restoring a separate line 
item in Homeland Security funding for the category, ``LETPP--Law 
Enforcement Terrorism Prevention Program.'' Highlights of our statement 
include:
  --Prevention, Such As Information Sharing, Involves 100 percent of 
        America's Law Enforcement Agencies
  --Terrorists Can Plan Anywhere, Thus Involving 100 percent of 
        America's Geography
  --Preventing Terrorism Is Not UASI \1\ Urbans Versus SARASI \2\ 
        Suburban and Rurals
---------------------------------------------------------------------------
    \1\ USAI=Urban Area Security Initiative.
    \2\ SARASI=Suburban and Rural Area Security Initiative.
---------------------------------------------------------------------------
  --Law Enforcement's Prevention Role Should Not Be Formula Funded At 
        the Expense of Law Enforcement's First Responder Role
  --Proposed fiscal year 2006 Budget Cuts For Suburban and Rural 
        Prevention and Responder Efforts Total 32 percent
    Have you heard of Iyman Faris? Probably not. In 2003, Mr. Faris was 
making plans to blow up the Brooklyn Bridge. He was NOT living in 
Manhattan. Mr. Faris was apprehended outside of Columbus, Ohio. Had the 
Brooklyn Bridge gone down, we probably would have all known Mr. Faris's 
name well.
    Heard of Azmi Al-Jayyusi? Probably not. In 2004, Mr. Al-Jayyusi 
headed up a sophisticated plot, designed in the small villages in 
Jordan, in which trucks, chemicals and explosives were surreptitiously 
purchased for purposes of blowing up select strategic targets 
(including the American Embassy) in the capital of Jordan, Amman. It 
was estimated the chemical explosives would have caused the deaths and 
injuries of 250,000 civilians. Once again, the urban city was not Mr. 
Al-Jayyusi's site for plotting and preparing; it was the rural 
countryside. Had Mr. Al-Jayyusi's terrorist plot been successful, we 
could probably recite his name easily as well.
    Heard of Ted Kazenski, the Unabomber? Yes, of course. Why? Because 
this domestic terrorist was successful in reeking widespread fear, his 
deeds carried out from the isolated forests of rural Montana. How about 
Eric Rudolph, the Abortion Clinic Bomber? Yes? Mr. Rudolph's eventual 
capture occurred during late night, at the site of a trash bin, behind 
a business in the small North Carolinian town of Murphy; a rural 
apprehension.
    ``All across our Country we'll be able to tie our terrorist's 
information to local information banks so that the front line of 
defeating terror becomes activated and real, and those are the local 
law enforcement officials. We expect them to be part of our effort; we 
must give them the tools necessary so they can do their job.'' 
President George W. Bush, February 2003
    As President Bush so accurately notes, preventing domestic and 
international terrorism requires enlisting the commitment and 
involvement of 100 percent of America's geography and 100 percent of 
America's law enforcement agencies.
    Geography.--In the United States, there are 3,042 counties. There 
are only 60 to 65 counties within the UASI (Urban Area Security 
Initiatives) areas as designated by the U.S. Department of Homeland 
Security (Map 1). That leaves some 2,980 counties within the non-UASI, 
non-urban areas involved in preventing, detecting, deterring and 
disrupting terrorism (Map 2).
    Successful terrorism prevention requires that these 2,980 SARASI 
counties (Suburban and Rural Area Security Initiatives) continue to 
receive LETPP \3\ funds commensurate with their percentage geography, 
and commensurate with the need to prepare, equip and train all local 
law enforcement, urban, suburban and rural.
---------------------------------------------------------------------------
    \3\ LETPP=Law Enforcement Terrorism Prevention Program.
---------------------------------------------------------------------------
    L/E Agencies.--This Nation's terrorism fight requires our enlisting 
the aid and commitment of all of America's 19,000 law enforcement 
agencies. Over 80 percent of U.S. law enforcement agencies are located 
outside the UASI cities, and within the SARASI counties, towns and 
villages. Less than 20 percent of America's law enforcement agencies 
are in UASIs. Yet, proposed fiscal year 2006 prevention funding is 
weighted toward 50 large cities and decreases funding allocations 
available to the over 80 percent of America's suburban and rural law 
enforcement agencies (Table 1).

     TABLE 1.--UASIS \4\ VERSUS SARASIS \5\ IN PREVENTING, DETECTING, DETERRING AND DISRUPTING DOMESTIC AND
                                             INTERNATIONAL TERRORISM
          [Prevention (E.G. Information Sharing) Involves 100 Percent of U.S. Law Enforcement Agencies]
----------------------------------------------------------------------------------------------------------------
                                                                    Total U.S.         UASIs          SARASIs
----------------------------------------------------------------------------------------------------------------
Counties:
    Number......................................................           3,042           60-65           2,980
    Percent.....................................................             100               2              98
Law Enforcement Agencies:
    Number......................................................    About 19,000     About 3,500          15,500
    Percent.....................................................             100              18             82
----------------------------------------------------------------------------------------------------------------
\4\ UASI=Urban Area Security Initiative.
\5\ SARASI=Suburban and Rural Area Security Initiative.

    ``Preventing terrorism equates to intelligence'' (eg. information 
sharing). Congressman Christopher Cox (R-CA), Chair, Homeland Security 
Committee, U.S. House of Representatives, February 2005.
    In fiscal year 2004, the President and Congress identified the 
unique role of law enforcement in the Nation's fight against terrorism. 
That unique role of law enforcement is prevention. Thus, within the 
U.S. Department of Homeland Security's grant programs, the ``Law 
Enforcement Terrorism Prevention Program'' (LETPP) was created. In the 
above television interview, Chairman Cox emphasized the need for 
prevention, intelligence and information sharing. Prevention, 
intelligence and information sharing can only be achieved with 100 
percent involvement of America's law enforcement agencies.
    Although the proposed fiscal year 2006 President's budget collapses 
grant fund categories and incorporates LETPP funding into UASI and 
SHSGP \6\ categories, the loss of the separate LETPP funding category 
will:
---------------------------------------------------------------------------
    \6\ SHSGP=State Homeland Security Grant Program.
---------------------------------------------------------------------------
  --Greatly restrict suburban and rural law enforcement from moving 
        forward on prevention efforts such as information sharing;
  --Increase the likelihood that local law enforcement will not be 
        fully funded on prevention plus their responder roles because 
        of the funding needs by all other public safety first responder 
        and health agency groups; and
  --Greatly restrict funding for law enforcement's responder roles 
        because of formula funding that could be interpreted as having 
        funded law enforcement because of the 20 percent prevention 
        mandate.
    Below we offer explanations for these potential complications.
    ``Smaller States would see an 80 percent cut according to the 
proposed fiscal 2006 budget. That's not just a small drop. That's a 
leap off the cliff.'' Senator Susan Collins (R-Maine), Chair, Senate 
Homeland Security and Governmental Affairs Committee.
    The four-fold purposes of this document are to respectfully request 
the U.S. Congress:
  --Reinstate the Homeland Security funding category of ``LETPP--Law 
        Enforcement Terrorism Prevention Program'' as a separate line 
        item funding category;
  --Restrict the use of formula funding to require a threshold 
        percentage of funding be directed toward prevention versus 
        response efforts;
  --Avoid funding allocations that will have UASI urban cities funded 
        to the detriment of all other counties, towns and villages 
        involved in the prevention of terrorism; and
  --Avoid melding the prevention plus responder roles of law 
        enforcement into one funding category used to fund responder 
        functions for all other first responder public safety and 
        health agency forces.
    The original purpose of the fiscal year 2004 LETPP was to ``seek to 
provide law enforcement communities with enhanced capabilities for 
detecting, deterring, disrupting, and preventing acts of terrorism.'' 
\7\ It should be noted that the mission statement identified ``law 
enforcement communities,'' not just urban area law enforcement 
communities.
---------------------------------------------------------------------------
    \7\ Fiscal year 2004 Homeland Security Grant Program: Program 
guidelines and application kit, U.S. Department of Homeland Security, 
page 38.
---------------------------------------------------------------------------
    The LETPP program funding category provided law enforcement 
communities with monies to pursue five program areas: (1) information 
sharing; (2) target hardening; (3) threat recognition; (4) intervention 
activities; and (5) interoperable communications.
    The President's 2006 Proposed Budget from the U.S. Department of 
Homeland Security will inhibit efforts to build forward on terrorism 
prevention and first responder work of local law enforcement officials. 
The program budget review document for fiscal year 2006 ``State 
Homeland Security Grants Program'' (as prepared by the Office of State 
and Local Government Coordination and Preparedness, U.S. Department of 
Homeland Security) shows a total appropriation budget request of $1.242 
billion or, a $482 million reduction from the $1.725 billion homeland 
security funds approved for fiscal year 2005.8 This loss of half a 
billion dollars from thousands of public safety agencies' budgets will 
greatly reduce suburban and rural terrorism prevention and first 
responder efforts (Table 2 and Table 3).
    The philosophical and strategic argument for increasing funds for 
the Nation's UASIs (Urban Area Security Initiatives) appears to involve 
the adoption of ``risk assessment'' as opposed to population formula 
for allocation of Homeland Security funds. The argument being put 
forward is that the major cities will, in greater probability, be the 
location of future terrorist attacks. Then, the argument of logic is 
furthered that these major urban centers need more monies to adequately 
prepare to prevent and respond. This argument should also recognize the 
significant role that all of this Nation's law enforcement agencies 
play in prevention efforts--to ``detect, deter, disrupt and prevent 
acts of terrorism.''

 TABLE 2.--PROPOSED $480 MILLION (32 PERCENT) LOSS IN PREVENTION AND RESPONDER FUNDING FOR THE 2,980 SARASI \9\
                                                    COUNTIES
 [All suburban and rural prevention and responder efforts by fire, EMS, EMA, health and police will experience a
                                    32 percent total cut in fiscal year 2006]
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year    Fiscal year 2006
                                                             2005  enacted       request             Change
----------------------------------------------------------------------------------------------------------------
SHSGP \10\................................................           1,100              1,020               (80)
LETPP \11\................................................             400  .................              (400)
                                                           -----------------------------------------------------
      Total Funding to Suburban & Rural SARASIs...........           1,500              1,020              (480)
                                                                                                (32 percent cut)
----------------------------------------------------------------------------------------------------------------
\9\ SARASI=Suburban and Rural Area Security Initiative.
\10\ SHSGP=State Homeland Security Grant Program.
\11\ LETPP=Law Enforcement Terrorism Prevention Program.


 TABLE 3.--WITH THE PROPOSED FISCAL YEAR 2006 20 PERCENT FORMULA FUNDING
 FOR LETPP \12\, FUNDING FOR JUST RESPONSE EFFORTS BY SUBURBAN AND RURAL
PUBLIC SAFETY FORCES WILL BE CUT BY ($284 MILLION) (26 PERCENT CUT) FROM
                            FISCAL YEAR 2005
 [Proposed fiscal year 2006 First Responder cuts to SARASIs amount to a
          26 percent cut from fiscal year 2005 funding levels]
                        [In millions of dollars]
------------------------------------------------------------------------
                                 Amount                        Amiount
------------------------------------------------------------------------
Fiscal year 2006 Request           $1,020  SARASI First          $1,100
 SHSGP \13\.                                Responder
                                            fiscal year
                                            2005.
Formula Funding percent to            204  SARASI First             816
 LETPP.                                     Responder
                                            fiscal year
                                            2006.
Balance to First Responder            816  Loss to SARASI          (284)
 SARASIs \14\.                              First
                                            Responders.
------------------------------------------------------------------------
\12\ LETPP=Law Enforcement Terrorism Prevention Program.
\13\ SHSGP=State Homeland Security Grant Program.
\14\ SARASI=Suburban and Rural Area Security Initiative.

    Prevention of terrorism needs the involvement of 100 percent of the 
law enforcement community throughout the Nation. Although the 
probability of a future terrorist attack may involve major urban areas, 
the prevention of future terrorist attacks must involve all 19,000 law 
enforcement agencies throughout the 3,042 counties in the United 
States.
    Information Sharing as Prime Example: Information sharing amongst 
law enforcement agencies is as critical as President Bush noted in his 
February 2003 comments noted earlier, and as reinforced by U.S. House 
Homeland Security Chair Congressman Cox's February 2005 comments noted 
previously. Of the five program areas authorized in 2005 for LETPP 
Homeland Security funding, information sharing between law enforcement 
agencies is listed first. Effective information sharing requires 
linking information systems for all 19,000 law enforcement agencies, 
not just crime data systems within UASI agencies.
    As example, the ``Ohio Local Law Enforcement Information Sharing 
Initiative,'' as supported by the Ohio Department of Public Safety and 
managed by Ohio Attorney General Jim Petro's Office and the Ohio 
Association of Chiefs of Police, involves the linking of Record 
Management Systems (RMS) between the nearly 1,000 law enforcement 
agencies in Ohio. Approximately 18 percent of the Ohio law enforcement 
agencies are within the four Ohio UASI regions, while 82 percent of the 
law enforcement agencies are within Ohio's 84 SARASI counties.
    The cost of linking all nearly 1,000 Ohio law enforcement agency 
RMS systems approximates $20-25 million. The linking of any given 
single agency is on, average, approximately the same, whether located 
in an UASI region or SARASI region. Thus, of the total cost for Ohio's 
Information Sharing Project, $3.5 million to $4.5 million must be 
allocated for UASI located agencies, while $16.5 to $20.5 million must 
be directed toward the law enforcement agencies in the SARASI counties 
(Table 4).

   TABLE 4.--OHIO INFORMATION SHARING PROJECT--COST TO LINK THE 18 PERCENT OHIO UASI \15\ AGENCIES AND THE 82
                                        PERCENT OHIO SARASI \16\ AGENCIES
 [The proposed fiscal year 2006 LETPP budget formula will only direct up to 50 percent of the LETPP to Non-UASI
  or SARASI areas, while Ohio's suburban and rural SARASI agencies will need 82 percent of prevention funds to
            complete one aspect of prevention, i.e., information sharing between agency RMS systems]
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                Cost of connect
                                              No. of counties           No. of agencies         agency RMSs \17\
----------------------------------------------------------------------------------------------------------------
Ohio UASIs:
    Number................................                  4    about 175...................           $3.5-4.5
    Percent...............................                  4.5  17..........................                 17
Ohio SARASIs:
    Number................................                 84    about 825...................         $16.5-20.5
    Percent...............................                 95.5  82..........................                 82
                                           ---------------------------------------------------------------------
      Total...............................                 88    about 1,000.................             $20-25
----------------------------------------------------------------------------------------------------------------
\15\ UASI=Urban Area Security Initiate.
\16\ SARASI=Suburban and Rural Area Security Initiative.
\17\ RMS=Record Management systems.

    The U.S. Department of Homeland Security's fiscal year 2006 Budget 
proposes the cost for information sharing prevention efforts be 
allocated as a 50/50 split between UASIs and SARASIs. LETPP dollars 
have been incorporated within the UASI and State Homeland Security 
Grant Programs. By approaching 2006 LETPP funding using formula 
percentages, States will no longer have the flexibility to allocate 
necessary dollars to accomplish full information sharing.
    In addition, the proposed U.S. Department of Homeland Security 
fiscal year 2006 Budget also begins to increase the potential for 
funding competition between law enforcement and all other public safety 
first responder agencies. In the fiscal year 2004 and fiscal year 2005 
budgets, Homeland Security separated the law enforcement prevention 
role by having the separate LETPP line item. By separating LETPP from 
the State Homeland Security grant programs, response issues for all 
First Responders (including law enforcement) were debated and explored 
within the funds allocated to the ``State Homeland Security Grant 
Programs.'' Prevention issues did not have to be co-mingled with 
response discussions because LETPP existed as a separate line item.
    By collapsing the LETPP program within the State Homeland Security 
grant program, non-law enforcement First Responders (Fire, EMA, EMS, 
Health) may be inclined to restrict additional funding needs of law 
enforcement, be they prevention or response needs, because 20 percent 
has already been required for law enforcement. The predictable concern 
will be, ``Why should law enforcement get 22 or 30 or 40 percent of 
funding, when Congress has already assigned 20 percent of funds for 
police.''
    The proposed 20 percent formula funding of LETPP will restrict 
prevention efforts for the suburban and rural communities and counties, 
potentially increase competition between law enforcement versus all 
other first responders, and further inhibit police response role issues 
to be separated from prevention role issues.
    Additionally, all suburban and rural first responders will 
experience reductions from the fiscal year 2005 $1.1 billion allocated 
to State grants. With the proposed formula allocation of $204 million 
incorporated within the State Homeland Security Grant Program for 
LETPP, State grant allocations will be reduced to $816 million (an 
almost $300 million reduction for SARASI or non-UASI county use for 
response plans, equipment and training) (Table 3). These 80 percent of 
First Responder and Health agencies within the SARASI communities will 
experience a more than 25 percent reduction from funds available for 
all First Responders involved in response planning, equipment and 
training.
    In summation, we would respectfully ask that the United States 
Congress:
  --Reinstate the Homeland Security funding category of ``LETPP--Law 
        Enforcement Terrorism Prevention Program'' as a separate line 
        item funding category;
  --Restrict the use of formula funding to require a threshold 
        percentage of funding be directed toward prevention versus 
        response efforts;
  --Avoid funding allocations that will have UASI urban cities funded 
        to the detriment of all other counties, towns and villages 
        involved in the prevention of terrorism; and
  --Avoid melding the prevention plus responder roles of law 
        enforcement into one funding category used to fund responder 
        functions for all other first responder public safety and 
        health agency forces.
    America has not had any major terrorist incidents since 9/11. We 
would respectfully ask, ``Why would we want to change that which is 
working?'' Instead, would it not be more prudent to build forward, in 
not redesigning that which is working, but to instead address 
deficiencies which may have been recently identified? LETPP, as a 
separate line item, has served this Nation well toward accomplishing 
significant prevention strategies and in effectively separating out the 
unique prevention role 19,000 law enforcement agencies perform amongst 
the first responder roles all public safety forces are engaged in our 
3,042 counties. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

             Prepared Statement of the University of Miami

    Chairman Gregg, Ranking Member Byrd, and distinguished members of 
the Subcommittee, thank you for giving me the opportunity to provide 
testimony on the Disaster Resistant University initiative and to 
request the program be continued in the fiscal year 2006 appropriations 
bill of your Subcommittee.
    We very much appreciate the interest Members of Congress have shown 
in this program. With only a small Federal investment, the Disaster 
Resistant University program created a model for other educational 
institutions to develop and implement a loss control program and 
created a sense of focus, pride and achievement. It is a small program 
with great benefits. We urge that the program be continued.

Request for Fiscal Year 2006
    We respectfully request the following language in the fiscal year 
2006 Department of Homeland Security Appropriations Report in the 
Emergency Preparedness and Response section under Predisaster 
Mitigation.
    The Committee directs Emergency Preparedness and Response (FEMA) to 
continue the Disaster Resistant University Program as a separate 
program and to provide continued support of $500,000 directly to each 
of the pilot universities and $500,000 each to those selected in 2004 
to implement mitigation efforts to reduce their vulnerabilities and 
improve protection of their students, employees, and the Federal 
investment in vital research.
    The FEMA Disaster Resistant University (DRU) Program was created to 
reduce the potential for large loss of life and hundreds of millions of 
dollars in key Federal research and billions of dollars in damage from 
natural disasters. The University of California at Berkeley was the 
prototype and founding member of the program.
    In October 2000, FEMA selected five additional universities to join 
Berkeley in the pilot phase of the program: the University of Alaska at 
Fairbanks, University of Miami, University of North Carolina at 
Wilmington, Tulane University, and the University of Washington at 
Seattle. The pilot universities have two elements in common: a 
vulnerability to disasters and a commitment to improve protection of 
students, faculty and staff, and one of our most valuable assets, 
intellectual property. The pilot program was funded with $700,000 in 
grants from predisaster mitigation funds and the U.S. Fire 
Administration.

Purpose of the Program
    The purpose of the program is to help the Nation's colleges and 
universities facing the threat of natural disasters and acts of 
terrorism to assess their vulnerabilities and find ways to protect the 
lives of their students, faculty, and staff; their research; and their 
facilities. It will provide a framework and process for other 
universities to do the same.
    The intent of the program is to assist universities by first 
providing a small grant for them to assess their vulnerabilities, 
devise appropriate plans, and set priorities and then to provide grants 
in following years of approximately $500,000 each for the universities 
to implement projects to reduce campus vulnerabilities to disaster.

Need for the Program
    The Federal Government funds $21.1 billion annually in university 
research, according to the National Science Foundation statistics in 
2002, the latest year available. This Federal investment in the vital 
intellectual property of the Nation should be protected.
    In addition, universities are critical to the economic health of 
their surrounding communities. The ability to resume operations quickly 
following a disaster greatly speeds the recovery of the entire 
community.
    Some examples of the economic impact of universities on their 
communities follow:
  --The University of Miami is the largest private employer in Miami-
        Dade County with 10,157 employees and 6th largest employer 
        overall and has an economic impact of $3.9 billion a year and 
        37,000 employment positions in the community.
  --The University of Washington is the 3rd largest employer in the 
        state of Washington and has a $3.4 billion impact.
  --The University of North Carolina at Wilmington is the 3rd largest 
        employer in the area and is a $400 million annual benefit to an 
        eight county area.
  --The University of California at Berkeley is the 3rd largest 
        employer in the Bay area and generates $1.4 billion annually in 
        the Bay area.
  --Tulane University is the largest private employer in the New 
        Orleans metropolitan area and the 5th largest private employer 
        in Louisiana with an $842 million annual economic impact on the 
        City of New Orleans and an annual economic impact of $1.12 
        billion on the state of Louisiana.
  --The University of Alaska at Fairbanks is the largest civilian 
        employer in the Tanana Valley.
    In addition, many universities operate medical schools which 
provide essential clinical services to the residents of their 
communities and adjacent areas.
    In the past decade, disasters have affected university and college 
campuses with increasing frequency. For most universities, damage that 
results in closure of four weeks or more would result in canceling a 
semester with devastating consequences for the school, the students and 
the community.
    Many recent events underscore the need for the program: the loss of 
many years of research at the Texas Medical Center as result of 
flooding from Tropical Storm Allison; the earthquake damage to the 
University of California at Northridge and the University of California 
at Los Angeles; the facility damage and loss of life at the University 
of Maryland as result of a tornado; hurricane damage to the University 
of North Carolina at Wilmington; the earthquake damage to the 
University of Washington at Seattle; and the declaration by the FBI 
that our universities are ``soft' targets for terrorists.

Status of the Program
    Congress directed in the fiscal year 2003 Appropriations Bill for 
FEMA that $500,000 was to be available to the six existing DRUs and 
$100,000 each was to be available for at least six new ones to start 
the process. On December 31, 2003, FEMA published a Notice of Funds 
Availability (NOFA) for grant applications. The funds were from the 
PreDisaster Mitigation Fund.
    Forty-four universities and four consortia applied by the March 
2004 deadline. Applications were received from six Historic Black 
Colleges and Universities (HBCU) and one tribal school. Applications 
were received from universities located in nine of the ten FEMA 
regions.
    In October 2004 FEMA announced twenty-four colleges and 
universities had been selected to join the six pilots in the program. 
Those universities are as follows: Radford University (VA), Virginia 
State University, Virginia Tech, Florida Agricultural & Mechanical 
University, Florida International University, University System of 
Georgia, University of Louisville (KY), University of Mississippi, 
Horry-Georgetown Tech (SC), University of Memphis (TN), University of 
Akron (OH) Southern University (LA), University of New Orleans (LA), 
University of Central Oklahoma, Texas State Technical College, Texas 
University-Medical Center, Metropolitan Community College (MO), 
University of Colorado at Boulder, North Dakota State University, 
Sitting Bull College (ND), San Jose State University (CA), University 
of Southern California, University of Nevada-Reno, and the University 
of Oregon. These colleges and universities received Federal grants 
ranging from $31,000 to $100,000. The institutions are providing 25 
percent of the cost.
    The applications for the fiscal year 2003 funding for the pilots 
and the new schools had layers of requirements and were very time 
consuming. One of the new schools indicated that over 150 hours of 
staff time was required to complete the application for $100,000. 
However, the colleges and universities seeking to enter the program and 
obtain a grant put forth the effort and accepted the responsibilities 
of a rigorous planning and risk analysis process because of the 
incentive to become part of the separate DRU program and to be eligible 
for yearly grants of $500,000 to implement mitigation projects. In 
addition the colleges and universities expected to be mentored by other 
universities and guided by FEMA.
    However, FEMA guidance for the PreDisaster Mitigation Program (PDM) 
issued in October 2004 for the combined 2004 and 2005 PDM grant cycles 
indicated that FEMA was not continuing the DRU as a separate program 
and recommended that colleges and universities apply for projects in 
the nationally competitive PDM program. Given the great benefit to FEMA 
and the Nation from such a small investment, this was a great 
disappointment to the pilots and to the new selections. Public and 
private nonprofit colleges and universities were already eligible 
applicants for the nationally competitive PDM program. Receiving a 
single grant for one hurricane shuttering project, one drainage 
improvement, or one earthquake retrofit is very helpful, but it is not 
a substitute for a comprehensive, multiyear program.
    Given the many challenges facing our universities, it is difficult 
to compete for attention and money for disaster preparedness and 
mitigation when there is not an immediate threat. However, designation 
as a Disaster Resistant University has real value. The pilot 
universities found that the designation as a Disaster Resistant 
University and the expectation of continuing to participate in the 
program brought attention and commitment at the highest levels of the 
universities. The networking and partnerships built with Federal, 
State, and local emergency management officials and other entities 
serving the public, such as hospitals and utilities, have benefits to 
the communities far beyond the scope of the original program and 
certainly way beyond the amount of the grants. Participating in the 
program created a framework for disaster planning and mitigation 
activities that helped universities focus and enhance efforts to 
protect their students, faculty, staff, vital research, and facilities. 
Two of the great values of the program which should not be overlooked 
have been the mentoring and exchanging of ideas among participating 
universities and the pilots spreading the FEMA mitigation message as 
they share their experiences at many different national and regional 
meetings of educational institutions.
    We again thank you for the opportunity to provide written comments 
and respectfully urge that the DRU program be continued. A summary of 
previous Congressional interest in this program is attached. We would 
welcome the opportunity to provide additional information or to discuss 
the program further with your staff.

Summary of Congressional Interest
    We very much appreciate the support Congress has given this 
program.

Fiscal Year 2002
    The Conference Report on the VA, HUD and Independent Agencies 
Appropriations bill for 2002 (House Report 107-272) contained the 
following language:
    The conferees believe that many of the Nation's universities are 
vulnerable to disaster and urge FEMA to continue its Disaster Resistant 
University program and expand the scope to include safe-guarding 
university assets from acts of terrorism.

Fiscal Year 2003
    The Conference Report on the fiscal year 2003 Omnibus bill in the 
FEMA section of the VA, HUD and Independent Agencies stated the 
following:
    The conferees are in agreement that FEMA should continue the 
Disaster Resistant University program and direct FEMA to carry out the 
direction contained in House Report 107-740.
    House Report 107-740 stated the following:
    Finally, the Committee notes that in September of 2000 FEMA 
selected five universities to join the University of California at 
Berkeley in the pilot phase of the Disaster Resistant University 
program: University of Alaska/Fairbanks, University of Miami, 
University of North Carolina/Wilmington, Tulane University, and 
University of Washington/Seattle. The purpose of the program is to help 
the Nation's colleges and universities facing the threat of natural 
disasters to assess their vulnerabilities and find ways to protect 
their research, facilities and the lives of students, faculty and 
staff. The Committee directs FEMA to continue the Disaster Resistant 
University Program with grants of $500,000 to each of the six pilot 
Disaster Resistant Universities and $100,000 each to at least six 
additional universities, including at least one HBCU, to join the 
program.

Fiscal Year 2004
    The Senate Report on the Department of Homeland Security 
Appropriations bill (S. Report 108-86) included the following language 
under the National Pre-Disaster Mitigation Fund which was funded at 
$150,000,000.
    The Committee encourages the Department to continue the existing 
Disaster Resistant University program at the fiscal year 2003 level.
    The House receded to the Senate in the conference agreement.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five States' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budgets for the U.S. Coast 
Guard and the Federal Emergency Management Agency (FEMA).
    Both the Coast Guard and the FEMA have vital functions specifically 
related to homeland security that must be adequately funded. But both 
also have other traditional missions that are equally important to 
public health and safety, economic well-being, and environmental 
protection. For the Coast Guard, these include activities such as aids 
to navigation, vessel and facility inspections, emergency response, and 
mariner licensing. For FEMA, key traditional missions include the 
National Flood Insurance Program, flood map modernization, hazard 
mitigation, and response to floods and other natural disasters. Nowhere 
are these services more important than on the Upper Mississippi River 
System, which supports a vital link in the inland waterway 
transportation system, some of the Nation's most productive 
agricultural land, population centers ranging from small towns to major 
metropolitan areas, and a nationally significant ecosystem.

                     COAST GUARD OPERATING EXPENSES

    A continuing priority for the UMRBA is the Coast Guard's Operating 
Expenses account. The President's fiscal year 2006 budget proposal 
includes $5.55 billion for this account, an increase of almost 8 
percent from the fiscal year 2005 enacted level. However, this net 
increase of $390 million for Operating Expenses will be largely 
consumed by specific increases tied to implementation of the Maritime 
Transportation Security Act (MTSA); increased personnel costs; and 
operating costs for new vessels, aircraft, and facilities related to 
the Coast Guard's saltwater responsibilities. These initiatives are 
important in their own right and will benefit a range of Coast Guard 
missions. However, it is also true that the Coast Guard's non-security 
missions on the Nation's inland waterways will be under continued 
strain as the inflation-adjusted resources for many of these missions 
remain static or shrink.
    When the Department of Homeland Security was formed, the UMRBA 
strongly supported the Coast Guard's stated objective of sustaining 
traditional missions near their pre-9/11 levels. These traditional 
missions are critical to the safe, efficient operation of the Upper 
Mississippi River and the rest of the inland river system. Under these 
mission areas, the Coast Guard maintains navigation channel markers, 
regulates a wide range of commercial vessels in the interest of crew 
and public safety, and responds to spills and other incidents. The 
beneficiaries include not only commercial vessel operators, but also 
recreational boaters; farmers and others who ship materials by barge; 
and the region's citizens, who benefit enormously from the river as a 
nationally significant economic and environmental resource.
    Even prior to September 11, recent years had brought a number of 
changes to the way the Coast Guard operates on the inland river system, 
including elimination of the Second District; closure of the Director 
of Western Rivers Office; decommissioning the Sumac, which was the 
largest buoy tender on the Upper Mississippi River; and staff 
reductions. While the States understand the need for efficiency, the 
cumulative impacts of these changes must be carefully monitored, 
particularly in light of the increased demands that we are now placing 
on the personnel and assets that remain in the region. The UMRBA is 
quite concerned that staff reductions and resource constraints have 
combined to impair the Coast Guard's ability to serve as an effective, 
proactive partner.
    Specifically, increased security demands have reduced the staff 
assigned to vessel inspections and limited the Coast Guard's 
investigation of reported spills. Sending a single person to conduct 
vessel inspections reduces the rigor of those inspections, and, in a 
worst case scenario, potentially puts the inspector at risk. Similarly, 
electing not to respond to reports of small spills means some of these 
spills will go uninvestigated and puts increased demands on local 
officials, who do not have the Coast Guard's expertise or resources. 
Moreover, it could result in costly delays should a spill turn out to 
be larger than first reported, an all-too-common occurrence. Temporary 
adjustments initially made to accommodate immediate security needs are 
now evolving into long term standard operating procedures. While 
everyone recognizes the need to adjust to our new security environment, 
it is essential for the Coast Guard to retain the capacity to perform 
its traditional missions on the Upper Mississippi River. Toward that 
end, the UMRBA supports the President's fiscal year 2006 budget request 
for the Coast Guard's Operating Expenses account, and urges Congress to 
ensure that sufficient resources from within this account are allocated 
to the Coast Guard's inland river work.

Research, Development, Testing, and Evaluation
    Through its Research, Development, Testing, and Evaluation (RDT&E) 
program, the Coast Guard conducts cutting edge research in several 
critical areas, including oil spill prevention and response, risk 
assessment, and mariner safety. Of particular note, researchers at the 
Coast Guard's Groton, Connecticut Research and Development Center have 
made invaluable contributions to State-of-the-art fast water spill 
response, in situ burning, and human error reduction. However, the 
President is once again proposing to shift the Coast Guard's RDT&E 
funding to the Department of Homeland Security's Science and Technology 
(S&T) Directorate. This proposal represents precisely the kind of 
diminution of the Coast Guard's non-security missions with which the 
UMRBA and others have repeatedly expressed concern. Research on 
innovative oil spill recovery equipment or new methods for combating 
crew fatigue will likely be lost in the department-wide S&T 
Directorate, with its overwhelming focus on homeland security issues. 
Moreover, the President's proposal appears to be inconsistent with 
Section 888 of the Homeland Security Act, which calls for ``the 
authorities, functions, and capabilities of the Coast Guard to perform 
its missions . . . [to] be maintained intact.'' The UMRBA urges 
Congress to provide adequate and direct funding of approximately $24 
million to the Coast Guard's multi-mission RDT&E program in fiscal year 
2006. This is the amount the Administration suggests the Coast Guard 
would receive from the S&T Directorate's competitive funds in fiscal 
year 2006, and is a $5.5 million increase over the fiscal year 2005 
RDT&E appropriation.

Reserve Training
    The President is requesting $119 million for Coast Guard Reserve 
Training in fiscal year 2006, an increase of $6 million, or 5 percent, 
over the fiscal year 2005 enacted level. The UMRBA States are keenly 
aware of the importance of the reserve forces. During major flood 
events on the inland rivers, reservists have consistently provided 
exemplary service, augmenting the Coast Guard's capabilities and 
helping to protect public health and safety. More recently, many 
reservists have been called to active duty, enabling the Coast Guard to 
meet many new security-related demands. On the inland rivers, this has 
included increased patrols near critical facilities and development of 
security plans for key inland ports. The UMRBA urges Congress to fund 
Reserve Training at $119 million in fiscal year 2006, thereby helping 
to maintain a Coast Guard reserve that can effectively execute both 
homeland security- and natural disaster-related missions.

Boating Safety Grants
    The Coast Guard's boating safety grants to the States have a proven 
record of success. The Upper Mississippi is a river where all types of 
recreational craft routinely operate in the vicinity of 15-barge tows, 
making boating safety all the more important. As levels of both 
recreational and commercial traffic continue to grow, so too does the 
potential for user conflicts.
    Boat safety training and law enforcement are key elements of 
prevention. However, the future of this successful grants program is 
uncertain. Following the pattern of recent years, the President has 
requested $59 million in fiscal year 2006 funding for boating safety 
grants to the States. This is the amount historically authorized 
without annual appropriation from the Boat Safety Account, which is 
funded by a tax on fuel for recreational motor boats. Successive 
Administrations have not typically exercised their option to request an 
additional $13 million in annual appropriations for the grants. 
However, the authority for the funding from the Boat Safety Account 
must be extended if the program is to continue in fiscal year 2006. 
Such a provision is currently being considered as part of pending 
transportation legislation. The UMRBA urges prompt reauthorization of 
the Boating Safety Program, and funding of this important work at $72 
million annually.

    FEDERAL EMERGENCY MANAGEMENT AGENCY (EMERGENCY PREPAREDNESS AND 
                         RESPONSE DIRECTORATE)

Hazard Mitigation
    UMRBA is particularly interested in FEMA programs that help 
mitigate future flood hazards. Mitigation, which is the ongoing effort 
to reduce or eliminate the impact of disasters like floods, can include 
measures such as relocating homes or community facilities off the 
floodplain, elevating structures, and practicing sound land use 
planning. Mitigation planning and projects are essential to reducing 
the Nation's future disaster assistance costs. Given the importance of 
mitigation, UMRBA supports the Pre-Disaster Mitigation (PDM) grant 
program, which was created in fiscal year 2003 and for which the 
President is requesting $150 million in fiscal year 2006. While the PDM 
grant program is still relatively new, it holds promise for enhancing 
communities' ability to prevent future damages, particularly in areas 
that have not experienced a major disaster and thus have not had access 
to post-disaster mitigation assistance through the Disaster Relief 
Fund. In addition, pre-disaster mitigation assistance is an effective 
means of meeting the ongoing need in all communities to plan for future 
floods and reduce their vulnerability before the next flood disaster.
    In fiscal year 2003, forty communities in the five Upper 
Mississippi River Basin States received PDM competitive grants, 
totaling $3.4 million. While most were relatively small planning 
grants, funding was also provided for acquisitions, safe rooms, and 
electric utility protection. The application period for the second 
round of grants (fiscal year 2004-2005 combined) just ended. While 
there have been concerns expressed about the complexities of the 
competitive process, there is no doubt that communities need such 
grants to help them develop effective mitigation plans and reduce the 
impacts of floods. Thus UMRBA supports the President's fiscal year 2006 
funding request of $150 million for the PDM program.

Flood Map Modernization
    Flood maps are not only used to determine risk-based National Flood 
Insurance Program premium rates, but also provide the basis for local 
regulation of flood hazard areas and for State and local disaster 
response planning. However, current flood maps are rapidly becoming 
obsolete due to the effects of land use changes in the watersheds. When 
outdated maps underestimate flood depths, it can often lead to 
floodplain development in high risk areas. It is therefore important 
that flood maps be updated on an ongoing basis and in a timely way.
    The President's fiscal year 2006 budget proposes $200 million for 
FEMA's Flood Map Modernization program. While funding for flood maps 
has increased substantially since the Map Modernization initiative 
began in fiscal year 2003, there are growing concerns about the 
adequacy of the original time and cost estimates. For instance, 
producing updated and accurate maps often requires that new studies be 
conducted. However, the existing map modernization budget is only 
sufficient to fund actual mapping costs and will not adequately cover 
the costs of necessary associated tasks, such as new flood elevation 
studies or levee certifications. Given that mapping needs are being 
prioritized based on population, rather than flood risk or need, it is 
not clear when relatively sparsely populated counties along the 
Mississippi River will be mapped. Ironically, the Federal Government, 
through the U.S. Army Corps of Engineers, recently spent approximately 
$17 million to develop new flood profiles for the Upper Mississippi and 
Lower Missouri Rivers. Unfortunately this updated information cannot be 
fully utilized until sufficient funding is made available to modernize 
and digitize the flood maps for river communities. Thus, the UMRBA 
urges Congress to provide adequate funding for map modernization, 
including sufficient funding to develop new maps for the Upper 
Mississippi and Lower Missouri Rivers based on the new flood profiles.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
